<html>
<title> - PERSPECTIVES ON RECONCILIATION OPTIONS IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-761]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-761

         PERSPECTIVES ON RECONCILIATION OPTIONS IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
  62-993 PDF             WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Crocker, Hon. Ryan C., dean and executive professor, George Bush 
  School of Government and Public Service, Texas A&M University, 
  College Station, TX............................................     3
    Prepared statement...........................................     5
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     7
Kilcullen, Dr. David, nonresident senior fellow, Center for a New 
  American Security, Washington, DC..............................    18
    Prepared statement...........................................    21
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Salbi, Zainab, founder and CEO, Women for Women International, 
  Washington, DC.................................................    11
    Prepared statement...........................................    13

                                 (iii)

  

 
         PERSPECTIVES ON RECONCILIATION OPTIONS IN AFGHANISTAN

                              ----------                              


                         TUESDAY, JULY 27, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Cardin, Casey, Shaheen, Kaufman, 
Lugar, Corker, Isakson, Barrasso, and Wicker.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar [presiding]. The hearing will be called to 
order. The chairman will be here in a short while, but he has 
asked me to initiate the hearing, and we're delighted to have 
our distinguished witnesses and an enormous amount of interest 
in our topic this morning. I will initiate the hearing with my 
opening statement and then if the chairman arrives at that 
point he will follow, and then we'll have testimony by our 
witnesses.
    I join Chairman Kerry in welcoming our witnesses, including 
Ryan Crocker, our former Ambassador to Iraq and Pakistan, and 
charge in Kabul who reopened our long-dormant mission there in 
January 2002. His practical experience in the region and 
leadership in the implementation of complex civil-military 
policy in conflict areas is invaluable, especially as we 
discuss the necessity for a political resolution in 
Afghanistan.
    While recognizing the valuable perspectives of all of our 
panelists in understanding the elements and dynamics of 
reconciliation and reintegration of belligerents in conflict-
prone environments, we must acknowledge that the voice of 
Afghans themselves is missing. Our panel brings considerable 
Iraq experience with them, but all realize the situations are 
substantially different, beginning with the poor economic state 
of Afghanistan and its very limited institutional capacity.
    Donors cannot remake Afghanistan through the near-term 
influx of billions in aid. The classified documents released 
this weekend, if they are deemed credible, attest to the 
special difficulties involved.
    On the heels of last week's Kabul conference, the ninth 
international conference in Afghanistan since 2001, this 
hearing provides an opportunity to discuss a topic that 
received little attention at that conference--namely the 
prospect and means for reconciliation in Afghanistan. This is a 
highly sensitive and complex undertaking.
    I, for one, am interested in the degree to which our 
administration believes that reconciliation should be intrinsic 
to our objectives in Afghanistan. As I noted at our last 
hearing, with finite resources we must identify those roles and 
those missions that are indispensable to achieving our 
objectives and those that are not. If reconciliation is 
indispensable, we must resource it properly and provide focused 
high-level leadership to the task.
    As Ambassador Holbrooke stated at our last hearing, some 
$100 million has been allocated through the $1 billion 
Commander's Emergency Response Program, or C-E-R-P, for General 
Petraeus to employ in assisting with Afghanistan's 
reconciliation plan. Specific additional resources, including 
from the Afghan Reconstruction Trust Fund, must be identified 
and judiciously employed, rather than attempting wholesale 
Afghan political and economic redevelopment.
    Unfortunately, much of the reconciliation program is still 
undetermined beyond the vague three-phase process suggested by 
President Karzai last week. At this moment, the effort appears 
to be left to the Afghan President, whose approach has been 
criticized as too narrow following his June Consultative Peace 
Jirga.
    An interesting contradiction exists in that the 
international community has shown little confidence in almost 
every area of Afghan governance--except the entire 
reconciliation program. Reconciliation and reintegration will 
have to embody the will of the population that must absorb it, 
rather than the political elites alone. A narrow agreement will 
be unstable. It will require recognition that the component 
elements of the conflict are more than just the Taliban and its 
factions. They include neighbors and their proxies, terror 
groups and their allies, tribal and clan antagonists, ongoing 
local turf battles, as well as criminal networks and newly 
enriched brokers who prefer the opportunities afforded by the 
status quo.
    This Kabul conference followed a familiar pattern, with 
prominent international officials descending on a beleaguered 
host country to hear its officials' claim a renewed commitment 
to productive development and a broad unifying effort. This 
conference was another appeal to a drifting international 
community to press for
the outcome, at any cost, of a developed and modern 
Afghanistan, rather than aim toward a political resolution 
among a host of competing actors.
    Beyond international press coverage, little headway was 
made in confronting the Taliban or al-Qaeda; winning over 
reconcilable insurgents; gaining ground on criminal and terror 
networks in Afghanistan and neighboring Pakistan provinces; or 
battling the endemic corruption that hobbles stabilization and 
development efforts in Afghanistan.
    While donors in Kabul agreed to funnel more of their 
assistance through host government channels, their ``steadfast 
commitments and support'' for this effort clearly remains 
contingent upon significant improvements in existing Afghan 
governance and institutional capacity. As Secretary Clinton 
stated, ``Our progress in the months and years ahead will 
largely depend on the people and the Government of 
Afghanistan.''
    I welcome President Karzai's statement that he intends to 
refocus international assistance efforts, ``on a limited number 
of national programs and projects to transform the lives of 
(our) people, reinforce the social compact between state and 
citizens, and create mechanisms of mutual accountability 
between the state and (our) international partners.''
    We look forward to learning the specifics of these programs 
and concentrating international efforts on achievable 
objectives. One such critical objective is the fair conduct of 
the parliamentary elections scheduled for September. Success in 
this endeavor, and in others, is vital if the Afghanistan 
Government is to gain the confidence and trust of Afghans, 
their partners, and potential reconcilables.
    I look forward very much to our panel's discussion of these 
and other issues concerning Afghanistan.
    At this juncture, in the absence of Senator Kerry, I've 
been instructed to proceed with the witnesses. This is a 
genuine honor and pleasure. The order in which the witnesses 
have been listed in our program today is: first of all, the 
Honorable Ryan Crocker, dean and executive professor, George 
Bush School of Government and Public Service at Texas A&M 
University; Ms. Zainab Salbi, founder and CEO of Women for 
Women International; and finally, Dr. David Kilcullen, 
nonresident senior fellow, Center for a New American Security 
in Washington, DC.
    If you will please proceed, Ambassador Crocker, we would 
appreciate your testimony.

     STATEMENT OF HON. RYAN C. CROCKER, DEAN AND EXECUTIVE 
PROFESSOR, GEORGE BUSH SCHOOL OF GOVERNMENT AND PUBLIC SERVICE, 
           TEXAS A&M UNIVERSITY, COLLEGE STATION, TX

    Ambassador Crocker. Thank you, Senator Lugar, members of 
the committee. It's an honor to be here before you today. The 
topic of this hearing is reconciliation, but reconciliation is 
something that must be considered in a larger context. I had 
the privilege of testifying before this committee last fall 
when the administration was reviewing its policy toward 
Afghanistan. At that time I said that we faced a determined 
strategic enemy in al-Qaeda and its Taliban supporters, an 
enemy who seeks to outlast us and regain the operational space 
they used to plan the 9/11 attacks.
    The administration wisely decided to step forward in 
Afghanistan and deny our enemies a fresh opportunity to shift 
the war from their territory to ours. We have said that our 
core goal in Afghanistan and Pakistan is to disrupt, dismantle, 
and defeat
al-Qaeda. I agree. But in my view, this requires denying them a 
secure operating environment, and that means a successful 
counterinsurgency campaign in Afghanistan and Pakistan. We will 
not prevail over our adversaries any other way. That requires 
time and patience, commodities generally in short supply among 
Americans.
    General Petraeus and I used to talk about the difference 
between the Washington clock and the Baghdad clock. Now it's 
between the Washington clock and the tribal areas in Pakistan 
and Afghanistan, where there are no clocks. We have a history 
in that region. In the 1980s we were deeply engaged in 
Afghanistan and Pakistan fighting the Soviet occupation. We 
were successful. But once the Soviets withdrew, we also 
disengaged, even though we could foresee the violence that 
would wrack Afghanistan as the various factions of the 
mujahideen, united only by a Soviet enemy, tore the country 
apart. We also withdrew from Pakistan, which went from being 
the most allied of America's allies to the most sanctioned of 
adversaries in the space of a year.
    Our lack of strategic patience at the beginning of the 
1990s paved the way to 9/11 a decade later. Both our allies and 
our adversaries in the region remember that history. Our 
friends are unsure of our commitment and hedge their bets. Our 
enemies think they can outlast us. We need to make it clear to 
both that our determination is equal to theirs.
    With respect to reconciliation, General Petraeus and I said 
repeatedly when we were in Iraq that you can't kill your way 
out of an insurgency. The internationally resourced integration 
program is an important initiative, as was President Karzai's 
Consultative Peace Jirga. At the same time, our experience in 
Iraq demonstrated that in order to take apart an insurgency you 
need to change your enemy's calculations. Reconciliation and 
reintegration become possible on a large scale when insurgents 
no longer are so sure they're winning. That was one of the 
critical results of the surge in Iraq, as it must be in 
Afghanistan. You simply don't get cracks and fissures in a rock 
until you bring a hammer down on it.
    Another lesson I learned in Iraq is the importance of being 
prepared to talk to anyone who is ready to talk without 
limiting ourselves through an elaborate set of preconditions. 
We talked to a host of extremely unpleasant people in Iraq. 
Some switched sides. Some simply dropped out of the fight. 
Others could be used to create dissension within the 
insurgency. In the end, there will be a certain number of the 
enemy who will have to be killed or captured. Our goal has to 
be to make that number as small as possible.
    Again, successful reconciliation and reintegration in my 
view can only occur within a successful counterinsurgency. 
There are many moving parts. It must be Afghan-led and that 
means we have to find a way to work productively with President 
Karzai. We have to work with the Pakistan that has confidence 
in us as a long-term strategic partner and in whom we have 
confidence. And here I would note that the Kerry-Lugar-Berman 
legislation has been a critical step in that direction. And 
Pakistan and Afghanistan have to be able to work together. 
There are also, as you noted, Senator Lugar, other regional and 
international dimensions of a very complex process.
    None of this will be quick or easy. The problems we 
confront in both Pakistan and Afghanistan have been decades in 
the making and some of the responsibility for those problems is 
ours because of our inconsistency and lack of strategic 
patience in the past.
    Since 9/11 I believe we have followed a consistent policy 
of engagement in Pakistan and Afghanistan, but impatience is on 
the rise again in this country. Before we give way to it, we 
owe ourselves a serious consideration of the alternatives. The 
road to 9/11 shows us what happens when we decide disengagement 
is better than engagement. That is what our adversaries are 
counting on now and what our allies fear.
    There are other alternatives being advanced in search of 
the quick, cheap fix. There isn't one. A successful 
counterterror strategy and successful reconciliation can only 
rest in my view on a successful counterinsurgency, and this 
will be a long, hard fight. But the consequences of abandoning 
that fight could be far more costly.
    And we have to be honest with ourselves over the grim 
consequences for Afghans, especially women and minorities, if 
we once again leave the field to Islamic militants. We would be 
held responsible for those consequences.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Crocker follows:]

 Prepared Statement of Ryan C. Crocker, Dean and Executive Professor, 
    George Bush School of Government and Public Service, Texas A&M 
                    University, College Station, TX

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for the honor of appearing before you today. I had the privilege of 
testifying before this committee last fall, when the administration was 
reviewing its policy toward Afghanistan. At that time, I said that we 
faced a determined strategic enemy in
al-Qaeda and its Taliban supporters, an enemy who seeks to outlast us 
and regain the operational space they used to plan the 9/11 attacks. 
The administration wisely decided to step forward in Afghanistan and 
deny our enemies a fresh opportunity to shift the war from their 
territory back to ours. We have said that our core goal in Afghanistan 
and Pakistan is to disrupt, dismantle, and defeat al-Qaeda. I agree. In 
my view, this requires denying them a secure operating environment, and 
that means a successful counterinsurgency campaign in Afghanistan and 
Pakistan. We will not prevail over our adversaries any other way. And 
that requires time and patience, commodities generally in short supply 
among Americans. General Petraeus and I used to talk about the 
difference between the Washington clock and the Baghdad clock. Now it's 
between the Washington clock and the tribal areas in Pakistan and 
Afghanistan where there are no clocks.
    We have a history in that region. In the 1980s, we were deeply 
engaged in Afghanistan and Pakistan, fighting the Soviet occupation. We 
were successful. Once the Soviets withdrew, we also disengaged even 
though we could foresee the violence that would wrack Afghanistan as 
the various factions of the mujahiddin, united only by the Soviet 
enemy, tore the country apart. We also withdrew from Pakistan which 
went from being the most allied of America's allies to the most 
sanctioned of adversaries in the space of a year. Our lack of strategic 
patience at the beginning of the 1990s paved the way to 9/11 a decade 
later. Both our allies and our adversaries in the region remember that 
history. Our friends are unsure of our commitment and hedge their bets; 
our enemies think they can outlast us. We need to make it clear to both 
that our determination is equal to theirs.
    It is a long war, Mr. Chairman, fought on multiple fronts; there 
are no shortcuts or easy fixes. In Iraq, more than 7 years on, it's 
still the beginning of the story where regional adversaries and enemies 
inside Iraq hope to outlast us. In Lebanon, our ill-considered 
engagement and swift disengagement more than a quarter of a century ago 
left a legacy we struggle with today in the form of Hezbollah. I am a 
veteran of both those campaigns, as well as service in Pakistan and 
Afghanistan. I offer a few thoughts on our current challenges based on 
those experiences.
    Support Your Allies: When I arrived in Kabul in January 2002 to 
reopen the U.S. Embassy, Hamid Karzai had been chairman of the Afghan 
Interim Authority for about 10 days. In those early months I worked 
with him as he wrestled with issues from the design of the Afghan flag 
to preparations for the first post-liberation Loya Jirga. Eight and a 
half years later, he is still doing what may be the roughest job in the 
world. We need to work with him, not against him. Only our common 
enemies can benefit from public controversy, and I am pleased to see 
that the tenor of our partnership is much improved. This does not mean 
we will agree on everything--far from it. Nor did we with Prime 
Minister al-Maliki in Iraq. But it does mean remembering that we are on 
the same side in a tough fight. It also doesn't mean backing only the 
central authority in Afghanistan, at the expense of local governance 
initiatives. We can and must do both, as we did in Iraq. Our goal, in 
coordination with our national and local partners, is not a shining 
city on a hill, but what Afghanistan scholar Clare Lockhart calls 
``good enough governance''--a government that can meet the basic needs 
of its citizens and over time insure their security.
    Reintegration and Reconciliation: Commenting on Iraq, General 
Petraeus and I both said repeatedly that you can't kill your way out of 
an insurgency. The internationally resourced reintegration program is 
an important initiative, as was President Karzai's Consultative Peace 
Jirga. At the same time, our experience in Iraq demonstrated that in 
order to take apart an insurgency, you need to change your enemy's 
calculations. Reconciliation and reintegration become possible on a 
large scale when insurgents no longer feel they are winning. That was 
one of the critical results of the surge in Iraq, as it must be in 
Afghanistan. You don't get cracks and fissures in a rock until you 
bring a hammer down on it. Another lesson I learned in Iraq is the 
importance of being prepared to talk to anyone who is ready to talk to 
us without limiting ourselves through an elaborate set of 
preconditions. We talked to a host of extremely unpleasant people in 
Iraq. Some switched sides. Some simply dropped out of the fight. Others 
could be used to create dissension within the insurgency. In the end, 
there will be a certain number of the enemy who will have to be killed 
or captured. Our goal has to be to make that number as small as 
possible.
    Structuring the Future: I am pleased that the administration is 
committed to negotiating a Strategic Partnership with Afghanistan. I 
hope this will be a process similar to the Strategic Framework 
Agreement that we negotiated with Iraq--a comprehensive understanding 
on all aspects of a bilateral relationship with a long-term ally. The 
agreement with Iraq covers cooperation in diplomacy, trade, economics, 
education, science, and technology. Both nations have a sense of where 
the relationship is going and what the value is of going forward. In 
Iraq, we are moving from a predominantly security-based relationship to 
a long-term, multifaceted strategic partnership. We are some ways away 
from that in Afghanistan, but I believe that it is time now for the 
Afghan people to see that the U.S. commitment is long term with strong 
incentives for a return to normalcy.
    The International Dimension: The Kabul Conference has just 
concluded a historic gathering of Foreign Ministers from around the 
world. The international dimension is a key element in Afghanistan's 
long-term stability and development, and it is important to continue to 
institutionalize and consolidate this support. Other mechanisms such as 
the Six Plus Two and the Geneva Group should be explored, not least 
because of the presence of both the U.S. and Iran in both of these 
forums.
    The role of the United Nations is extremely important. The Special 
Representative of the Secretary General in Afghanistan, Steffan de 
Mistura, is doing excellent work on behalf of the international 
community. He also can be highly effective in an expanded regional 
role, working with Iraq's neighbors, including Iran, to formulate and 
implement understandings that support stability in Afghanistan.
    Unity of Effort: Our system does not provide for unity of command 
among military and civilians, but we must have unity of effort. General 
Petraeus and I worked very hard to achieve this in Iraq. It is equally 
critical in Afghanistan. Simply put, we cannot win the big war if we 
are fighting small ones among ourselves. It is already clear to me that 
Ambassador Eikenberry and General Petraeus are working to forge that 
unity of effort between themselves and their staffs.
    Pakistan: Mr. Chairman, we cannot bring Afghanistan to a better 
place without a long-term, strategic relationship with Pakistan. There 
are about as many Pashtuns in Pakistan as there are Afghans of all 
ethnicities in Afghanistan. The tribal areas of Pakistan have never 
been under central authority--not that of Alexander the Great, the 
Moghuls, the British Raj or of Pakistan since 1948. The need for 
sustained and systematic development in those areas and throughout 
Pakistan is critical. The Pakistani state and the Pakistani people need 
to see that the United States is a reliable ally in the country's long-
term economic and social development as well as in the war on terror. 
That is why the legislation you sponsored, Mr. Chairman, in 
coordination with Senator Lugar and Chairman Berman, is so important. 
Our $7.5 billion commitment to Pakistan over 5 years is a powerful 
signal that after the turbulence of the past, the United States is a 
reliable and committed partner. At the same time, we have to be careful 
not to overcondition our assistance. Congress and the American people 
have the right to demand accountability, but too much conditionality 
evokes memories of the Pressler amendment in Pakistan and can be 
counterproductive to our efforts to develop a sense of strategic 
partnership.
    Our policy of engagement with Pakistan is not new. It began after 
9/11 based on a calculation of our vital national security interests 
that remains valid today. The Bush administration restarted significant 
economic and security assistance, suspended for more than a decade 
because of sanctions. During my tenure as Ambassador from 2004 to 2007, 
we established what was then the largest government-financed Fulbright 
program in the world--funded by both the U.S. and Pakistani 
governments. In the Federally Administered Tribal Areas (FATA), the 
United States began constructing schools in 2002, the first many 
children in the area had ever seen. And the massive, U.S.-led 
earthquake relief effort in 2005-06 was the largest and longest 
airborne humanitarian mission since the Berlin Airlift.
    In 2006, we began a substantial, multiyear commitment to 
comprehensive development in the FATA. You have built considerably on 
these initiatives, Mr. Chairman. And yet there is much unfinished 
business. Over 5 years ago as Ambassador to Pakistan, I put forward a 
proposal for the establishment of Reconstruction Opportunity Zones 
(ROZs) in the Northwest Frontier and Baluchistan from which 
manufactured goods would have preferential entry into U.S. markets. 
Implementing legislation still has not been passed by Congress. We need 
to act now in defense of our own strategic interest in the economic 
development of these regions, and we need to include textiles.
    Partnership, of course, is a two-way street, and we have the right 
to expect cooperation from Pakistan. They need to do more against a 
common enemy. And we need to understand that the best way to achieve 
that is through quiet dialogue and not public remonstrations. 
Ultimately, this comes down to a judgment as to whether the United 
States and Pakistan share the same basic goals. Based on my experience 
in Pakistan, I believe we do, although we differ on tactics and 
timelines. I know many of Pakistan's civilian and military leaders, and 
I believe we share a common vision. The extension of General Kiyani as 
Chief of Army Staff for an additional 3 years is a positive development 
in view of the strong working relationship Admiral Mullen and General 
Petraeus have forged with him.
    Finally, Mr. Chairman, there is the critical relationship between 
Afghanistan and Pakistan. Just as the United States must find common 
strategic ground with our partners in both countries, they must find it 
with each other. This is something we worked very hard on during my 
time as Ambassador. There is a dialogue between Kabul and Islamabad, 
and the signing of the Afghanistan-Pakistan Transit Trade Agreement was 
a historic step forward. I hope we will continue to help both of our 
allies build on this achievement and overcome a legacy of mistrust and 
suspicion that dates back to the founding of the Pakistani state more 
than 60 years ago.
    Mr. Chairman, none of this will be quick or easy. The problems we 
confront in both Pakistan and Afghanistan have been decades in the 
making, and some of the responsibility for those problems is ours 
because of our inconsistency and lack of strategic patience in the 
past. Since 9/11, I believe we have followed a consistent policy of 
engagement in Pakistan and Afghanistan. But impatience is on the rise 
again in this country. Before we give way to it, we owe ourselves and 
our people a serious consideration of the alternatives. The road to 9/
11 shows us what happens when we decide disengagement is better than 
engagement. That is what our adversaries are counting on now, and what 
our allies fear. There are other alternatives being advanced, in search 
of the quick, cheap fix. There isn't one. A successful counterterror 
strategy can only rest on a successful counterinsurgency, and this will 
be a long, hard fight. But consequences of abandoning that fight could 
be far more costly, and we have to be honest with ourselves about the 
grim consequences for Afghans, especially women, if we once again leave 
the field to Islamic militants. The human rights abuses would be 
appalling, and we would be responsible for those consequences.
    Mr. Chairman, we have our best people forward in this fight--
Ambassador Eikenberry and General Petraeus in Afghanistan and 
Ambassador Patterson in Pakistan. Before contemplating dramatically 
different courses of action, I hope this committee will ask to hear the 
views of the men and women in the field, as it did of General Petraeus 
and me on Iraq a few years ago.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman [presiding]. Thank you very much, Mr. 
Ambassador, and I apologize to you and the committee for being 
a little late. I came in from Boston this morning and with the 
best intentions landed, I thought on time. But unfortunately 
there was a funeral procession at Arlington and then we got 
slowed up. I apologize to all for being a little late.
    If I could just--I would like to make a few opening 
comments and then we'll proceed with each of the other 
witnesses if I can. Let me begin just by thanking you for 
coming today to talk to the committee. I think you can see from 
the membership that's here today, obviously an important issue 
to the country and to the Congress, and there are a lot of 
questions, which is entirely appropriate.
    Today's hearing is really to try to focus on the issue of 
reconciliation and see what role that might play in achieving a 
political solution in the end. I think we have a very 
thoughtful panel to consider those issues.
    I might just comment that this is the 12th hearing of the 
committee on Afghanistan in the past 18 months, and it reflects 
our recognition of the critical role that this issue plays, the 
unbelievable expense of our human treasure, our sons and 
daughters who are there, and the monetary cost, obviously, is 
also enormous.
    I want to just say a couple words about the leaked 
documents relating to Afghanistan and Pakistan yesterday. I 
think it's important not to overhype or get excessively excited 
about the meaning of those documents. Certainly, to those of us 
who lived through the Pentagon Papers in a different period 
there is no relationship whatsoever to that event or to those 
documents. In fact, these documents in many cases reflect a 
very different pattern of involvement by the U.S. Government 
from that period of time.
    For all of us, the release of any classified information--I 
think this needs to be stated--is unacceptable. It breaks the 
law and, equally importantly, it potentially compromises the 
efforts of our troops in the field and has the potential of 
putting people in harm's way. These documents appear to be 
primarily raw intelligence reports from the field, and as such 
anybody who's dealt with those kinds of reports knows some of 
them are completely dismissable, some of them are completely 
unreliable, some of them are very reliable. But raw 
intelligence needs to be processed properly, and generally by 
people who have a context within which to put it. So I think 
people need to be very careful in evaluating what they do read 
there.
    I also want to emphasize, the events covered in those 
documents almost without exception, I think perhaps even 
without exception, occurred before last December, when the 
President announced a new Afghanistan strategy clearly designed 
to address some of the very issues that are raised by those 
documents.
    Obviously, in many cases many of us have raised the issues 
in those documents with the Pakistanis, with the Afghans, and 
I'll say a word more about that in a moment. All of us, 
however, are concerned that, after nearly 9 years of war, more 
than 1,000 American casualties, and billions of U.S. taxpayer 
dollars, the Taliban appear to be as strong as they have been. 
And to successfully reverse that trend, it is going to be very 
important for us to be able to depend on our partners in 
Afghanistan and in Pakistan.
    That's why the most disturbing thing that was reiterated in 
those documents and with greater color than is usually given it 
are the allegations about ties between extremists and 
Pakistan's intelligence agency. These are not new allegations. 
It's important for everybody to understand that. We have been 
wrestling with these allegations, and we have made some 
progress. General Kiyani, General Pasha, and others have been 
over here. We've had a number of meetings. We've been over 
there. This is not a revelation of a topic. This is something 
we have been dealing with and many people believe are making 
some progress, particularly when measured against the 
offensives that the Pakistanis themselves have taken in Swat, 
in South Waziristan, elsewhere, with great political difficulty 
and at great risk to themselves.
    Now, I've joined a lot of top administration officials in 
raising these very concerns with the Pakistan leaders and in 
making the point again and again that the battle against the 
extremists is in the interests of Pakistan as well as the 
United States. I think that when those extremists crossed over 
the Indus River last year, that became apparent to Islamabad 
and to the rest of Pakistan. I think the people have now 
recognized that the threat posed by home-grown extremists and 
their government and military have responded.
    We're here this morning to discuss a key aspect of how we 
stay together with our allies and move forward in a most 
effective way. The question before the committee and before the 
country is what role does reconciliation play in reaching a 
political solution that allows our troops to leave Afghanistan 
consistent with our core national security interests.
    It is inescapable that if Afghanistan were simply to tumble 
into anarchy or to fall as an existing government and the 
Taliban were to return, there's no question in any quarter of 
our intelligence or national security community that the 
consequence of that would be to give a free rein and even some 
exultation to al-Qaeda. It would certainly provide a greater 
ability to organize.
    The question for us is, What does it take to prevent that 
from happening? Does it require the full measure of what we are 
doing today? Could something different do it? That's really I 
think the most important question for all of us to be 
examining.
    As we do, I'm convinced personally that Pakistan remains as 
central as we have said it is over the course of the last 
months and perhaps holds the key even to resolving this, 
because it will not be resolved on the battlefield. So we have 
to figure out which insurgent groups can be part of a 
reconciliation process, what are the appropriate conditions, 
how would they be enforced? Is the time correct for approaching 
this? Who would be in charge of those negotiations, the Karzai 
government, the United States, United Nations? What is the role 
of Pakistan in that reconciliation process? None of these are 
easy questions to answer, but I assure you, and I think the 
panel will agree, they are critical to any outcome.
    In the past, the United States has supported reintegration 
in Afghanistan aimed at winning over low-level insurgency 
commanders and fighters. We have not yet supported the broader 
concept of reconciliation, which would involve talks with 
leaders of the insurgency. There are those who say this is not 
the time to talk. Some of them argue that we have to weaken the 
Taliban militarily so that they come to the bargaining table 
willing to cut a deal. Others contend that we should start 
reconciliation negotiations now, while we still have the time 
to exert military pressure.
    This is the first congressional hearing that I know of that 
is dedicated to this issue of reconciliation. It comes at a 
timely moment. Last week representatives from 65 countries 
gathered in Kabul for a conference to debate security, 
development, and reconciliation. This conference was a good 
step forward in showing the world that Afghanistan wants to run 
its own affairs. But many steps need to be taken by the Afghan 
Government national coalition to make this a reality.
    During the Kabul conference, President Karzai repeated his 
commitment that any dialogue with insurgents is contingent on 
their willingness to accept the Afghan Constitution and 
renounce
al-Qaeda. Secretary of State Clinton went further, stressing 
that any peace deal with the Taliban cannot come at the expense 
of women and civil society.
    Reconciliation must also address the anxieties of 
Afghanistan's minorities, the Tajiks, Hazaras, Uzbeks, who fear 
being left out of a Pashtun-only deal. And Pashtuns too must 
also feel included in the process. Any reconciliation agreement 
is going to have to be genuinely national, not the precursor to 
another civil war.
    You can see the complexity. This is a major diplomatic 
negotiating lift, and any talks are also going to have to take 
into account the interests of regional players--Iran, Saudi 
Arabia, China, Russia, and perhaps most importantly, Pakistan 
and India.
    Any successful political solution is going to have to take 
into account the power struggles that are under way in the 
region and the very real concerns of Afghanistan's neighbors. 
There is going to be a necessary recognition that there are 
actors other than the Quetta Shura Taliban that have to be 
considered in that process. Chief among them are the insurgent 
groups led by Jalaludin Haqqani and Gulbuddin Hekmatyar, both 
of which are continuing to target U.S. forces in Afghanistan.
    So today, to help us search for these answers we have 
Ambassador Ryan Crocker, familiar with both Afghanistan and the 
challenges of quelling an insurgency through diplomacy. He was 
the first U.S. charge in Kabul after September 11 and 
Ambassador to Pakistan, and he was the U.S. Ambassador in 
Baghdad when the tide turned in favor of stability there. So we 
welcome you back, Ambassador.
    And David Kilcullen is a former Australian Army officer and 
an expert in counterinsurgency who helped engineer the Sons of 
Iraq program, also known as the Sunni Awakening, when he was on 
the civilian staff of General Petraeus. He's also familiar with 
the challenges that General Petraeus and our civilian leaders 
face in Afghanistan today.
    Zainab Salbi is the founder and CEO of Women for Women 
International, a grassroots humanitarian and development 
organization. She's been a leading voice on civilian security 
in Afghanistan.
    A final comment I'd make as we go back to our panel is, I 
really believe that, given the amount of space we're trying to 
operate in in Afghanistan and the numbers of troops we have, 
even allied together, there are just some inherent limits, 
which the Taliban have come to understand better perhaps than 
others. Clearly, we have to operate within this political 
reality. I can't say it enough times. I believe Pakistan is 
perhaps more critical to the outcome of what happens in 
Afghanistan than what happens in many cases in Afghanistan 
itself. I think that remains true today.
    Who is next? I don't know who's going to go?
    Ms. Salbi.

  STATEMENT OF ZAINAB SALBI, FOUNDER AND CEO, WOMEN FOR WOMEN 
                  INTERNATIONAL WASHINGTON, DC

    Ms. Salbi. Mr. Chairman, members of the committee, it's an 
honor and a privilege to be in your company here.
    I'd actually like to start my comments with Pakistan, 
because I would argue, I would urge you to reconsider the role 
of Pakistan as not necessarily the only available partner for 
the United States. I actually would argue that we would 
consider other Muslim-dominated countries, such as Turkey, that 
is playing a major leadership role in the Muslim world, and to 
create a coalition with Turkey's leadership among Muslim-
dominated countries, such as Indonesia and Malaysia, which 
provides alternatives, viable alternatives, to the views of 
Islam and the practice and implementation of Islam within an 
Islamic context.
    I would actually argue that Turkey and some of these other 
countries--and you can include Saudi Arabia, but I would not 
give the leadership to Saudi Arabia; I would give the 
leadership to the ones who are really playing leadership in the 
Muslim world, which is Turkey at the moment, leadership to 
build a coalition, and for the United States and the 
international community to support that coalition and have that 
coalition be the one that is moderating the discussion between 
Afghanistan and Pakistan.
    I think we change the players, we have different views, we 
have more moderate views that are not tied to Pakistani or 
Afghans' views of Islam, because there are definitely a lot of 
variables and versions of Islam that we should consider for the 
Afghanistan region.
    So that's for me my first urge, to consider changing the 
players or adding new dynamics to the game or to the discussion 
vis-a-vis Pakistan. If you believe that Pakistan is the only 
viable alternative to lead the partnership with the United 
States, then there are a few things to be considered. One is 
Pakistan needs to be held accountable for their treatment of, 
or their views of, Afghanistan. You have to understand there's 
a bad history out there and there's a lot of suspicion and lack 
of trust between Afghanis and Pakistanis. So that's one.
    There's also a history of not same, equal treatment. 
Pakistan cannot tolerate and may not tolerate the treatment of 
women in Afghanistan in one way, in ways that I think everyone 
knows historically; yet in its own country, women are running 
for elections and are Prime Ministers. So there has to be a 
consistency in Pakistan's treatment of Afghanistan and their 
own vision and treatment of Afghan politics and society.
    Within that framework, if we are to talk with the Taliban 
and engage them in negotiations and discussions and 
reconciliation with the Taliban, then there are a few things 
that I would urge you to consider. One, there isn't such a 
sense of one Taliban. Within what's framed as there's one 
Taliban, there's actually a lot of factions, as you know, and a 
lot of militias. Some of them are incredibly extremist and 
should not be talked with, and some of them are interested and 
want to be engaged in a discussion.
    Mr. Chairman, you mentioned Julaladin Haqqani. I think his 
atrocities against so many civilians and United States 
officials and the Afghan Government should not be allowed--it 
closes the door for discussion with him. Mullah Omar, on the 
other hand, has a lot of actually members that are moderates, 
that are interested in getting jobs and stabilizing their lives 
and yes, there is a lot of alternatives to have discussions 
with them. We should consider talking with the moderate members 
within that faction of Taliban.
    I guess the message here is that there is not one Taliban; 
there are lots of different Talibans and we need to distinguish 
the definitions with them, and how the societies and, most 
importantly, Afghan society is seeing them.
    There are a few options that have been discussed that I'd 
like to comment on. One is the division of the country. I think 
this is--my summary is it leads to civil war. If we are 
dividing the country to protect the minorities in the country, 
then the minorities are distributed among the whole country. We 
will go back to colonial history that is very vibrant and very 
alive in a lot of the third world countries, particularly 
Afghanistan, and I think would not leave a good legacy for 
America vis-a-vis our history with Afghanistan.
    If we are talking about arming militias, then I would warn 
of not repeating the same mistake that the United States did in 
the 1980s with arming the militias, that led to a lot of the 
civil war in Afghanistan and a lot of the militias.
    So we should engage in reconciliation, distinguish who are 
the members we can engage with, the phases in which we can 
engage with, but dividing the country or arming militias I 
would say are things that should be out of the question for the 
viability of alternatives, available alternatives for 
Afghanistan.
    Last but not least, and I will stop with this point, is I 
know that there are issues that are considered--women and 
minorities--that may be considered a soft issue. I also know 
the treatments of women in Afghanistan and minorities have been 
one of the reasons in which the United States claimed why it's 
going to war with Afghanistan. We cannot abandon that. We 
cannot abandon that for U.S. credibility and leadership in the 
international community.
    Abandoning that does not mean simply the protection of 
women and minorities such as the Hazaras, the Uzbeks, and the 
Tajiks, but it's their inclusion in the negotiating table in 
serious and real ways. They are the ones who are most impacted, 
first of all. They provide information that may not be provided 
by political elites in Afghanistan. And they are the ones who 
have the most interest in protecting whatever peace agreement 
there is for their own personal security.
    I look at what's happening to women in Afghanistan as not a 
women's issue, as not some marginal issue that happens to 
Muslim women. I look at it as actually an indicator for the 
direction of that country. The first acts of violence that the 
Taliban have committed were against women, and for years the 
international community tolerated it. We all said it's Islam, 
it's Taliban, it's their culture. Eventually that violence went 
to all Afghan men and children and women, and eventually I 
would argue it came and hit the United States itself and it 
impacted the whole international political arena.
    We need to see women, what happens to women, the violence 
that happens and the treatment of women, as an indicator for 
the direction of the society, as a bellwether that tells us 
much more about national security than we may have considered 
in the past.
    Last but not least--and I am originally from Iraq, so I 
have a lot of the Iraq background in here--at the end of the 
day, the legacy is not a military one, it's a civilian one. 
Whatever solution has to be presented at the table must be 
impacted by the civilian population and felt and seen very 
immediate. This is yet to happen in Afghanistan. There is far 
more discussion and resource allocations focused on military 
solutions, far less on the civilian solutions. Unless we win 
the hearts and minds of the civilian population, both in their 
inclusion in the discussions and the reconciliation as well as 
in the investment in them in more serious ways than it has 
been, I don't see how we can have a viable alternative for 
peace and stability in Afghanistan.
    Thank you.
    [The prepared statement of Ms. Salbi follows:]

 Prepared Statement of Zainab Salbi, Founder and CEO, Women for Women 
                     International, Washington, DC

    First of all I'd like to extend my deepest thanks to Chairman Kerry 
and Ranking Member Lugar for the opportunity to provide testimony on 
the critical issue with which the committee concerns itself today. The 
title of today's hearing, ``Perspectives on Reconciliation Options in 
Afghanistan,'' reminds us that we are here together to explore all 
options. Some of these options may be from voices in Afghanistan who 
may not have been heard, and whose views may shed light on viable 
alternatives for Afghanistan that may not have been considered in the 
past.
    It has been my experience that women, civilians at the grassroots 
level, and those who are the most politically and economically excluded 
are impacted the most directly by the consequences of high-level 
policies and are therefore the ones who present viable and tangible 
propositions for sustainable solutions. I hope that I manage to 
represent these voices with the most accuracy and integrity for the 
utmost benefit of this discussion.
    So, what are the options for reconciliation in today's Afghanistan? 
America considers this question at a time when it has incurred great 
expense in terms of human and financial resources. It is looking for an 
exit strategy; the question is what compromises we have to make as we 
leave. So as we consider Afghanistan's reconciliation options we also 
consider this in the context of the impending American departure from 
Afghanistan.
    Of course we do not want to make any compromises for America's 
security, so we will not allow the Taliban to come back with al-Qaeda 
to Afghanistan. But that is about the only national security concern we 
have identified to date. No one is discussing how to protect the rights 
of the minorities or women, because that is not a major security 
concern for the major powers. Now that is not inevitable--it doesn't 
have to be. Women's rights are indicators for the direction of the 
society. Violation, extremism is often first visible when it is 
directed against women. The Taliban started their oppression and 
violence with women, but we didn't intervene until their violence 
manifested itself on our soil September 11 of 2001.
    Hence we cannot afford to compromise on women's rights in 
Afghanistan. We need to see what is happening to women as not a 
marginal issue but as a national issue that is telling about the 
direction for the society, as an indicator of our success or failure to 
achieve stability in a country and a region of great strategic 
importance. Women's rights in Afghanistan is an issue of national 
security. Perhaps not in the short term, but it is definitely in the 
long run, as we saw that September morning almost 9 years ago.
    Bearing this in mind, I invite you to consider the importance of 
the perspective of grassroots people--women, ethnic minorities, the 
poor--as we debate the issue of reconciliation today. We know the 
importance of the people's perspective: America's Founding Fathers 
established this country with the words ``We the people.'' I'd like to 
use my time here today to bring you the perspective of the Afghan 
people, the ``real'' Afghans, like my colleague Sweeta Noori and the 
more than 23,000 Afghan women I have worked with since 2002. Today I 
bring you their recommendations, based on decades of lived experience 
witnessing the coming and going of a number of political leaders and 
foreign powers these many years, based on the survival of the violence 
and instability associated with decades of war. The Afghan people have 
managed to preserve the hope of Afghanistan's future, and it is to them 
that I encourage you to look as you determine the best course for their 
country and our own.
    The guiding question that should frame our discussion on the issue 
of reconciliation is one that is as yet unanswered: ``With whom are we 
reconciling?'' This is a point that has yet to be defined in any 
meaningful way. The Karzai government has euphemized the Taliban as 
``angry brothers'' who must agree to renounce violence, uphold the 
constitution and renounce al-Qaeda in order to participate in 
reconciliation. Here in Washington, the United States Government uses 
the term ``Taliban,'' but this is an opaque and misunderstood 
generalization, one that lumps together as one many distinct groups 
that each have associated nuances and challenges for reconciliation. 
Allow me to elaborate on some of the complexities within this group 
called Taliban:
    1. First, there are the followers of Jalaludin Haqani. These are 
the hardliners, fundamentalist Taliban, who are purely tribal in 
identity and associated with the ISI in Pakistan. They have killed 
members of the government, as well as thousands of people from other 
tribes. Haqani is a war criminal who uses Islam to fight the Government 
of Afghanistan, the United States and NATO. He is not only dangerous--
he's, to use a word Ambassador Holbrooke has used, an 
``irreconcilable.'' If reconciliation were offered to this faction, the 
other tribes--principally the Uzbeks and the Tajiks of the North--would 
remember his brutality would revolt. Reconciling with this level of 
criminal no matter what pledge might be made to uphold the constitution 
or renounce violence--would spell tribal war in Afghanistan.
    2. Second, there are the followers of Mullah Omar. There are two 
camps in this group: the moderate Taliban with no relation to al-Qaeda, 
Afghans who are for the most part willing to accept women's rights, 
democratic governance, and abide by established preconditions. All they 
require to make this transition is the guarantee of job and the safety 
to live their lives. Also within this group there are the 
fundamentalists who do have links to al-Qaeda. These are also 
irreconcilables.
    3. Finally you have the followers of Gulbadin Hekmatyar. He is 
incredibly powerful, and a number of people from his party have posts 
in the Karzai government, all the way up to the level of minister. 
Hekmatyar is only interested in one thing: power. Within this camp, 
there are some who want power enough to accept democracy, human rights, 
and other preconditions so long as they exist in an Islamic government. 
But then there are others within his party who would be considered 
fundamentalists and who would not accept these conditions, who are 
irreconcilables.
    What lesson should we take away from these three distinct sides of 
a complex triangle of Taliban? That we should disabuse ourselves of the 
notion that there is one Taliban, and hence move forward very 
carefully. As within any group, there are moderates and there are 
fundamentalists. Within the Taliban, there are indeed some people who 
are fed up with fighting, and all they want is the guarantee that in a 
new government they will be able to live their lives peacefully, able 
to enjoy having a job and security. If the Afghan Government, the U.S. 
Government, or NATO can provide this, they will reconcile. There have 
already been talks with these Taliban, but these talks are stalled 
because no one--not the Afghan Government, nor the U.S., nor NATO--
could give them this guarantee.
    On the other end of the spectrum, fundamentalists are fighting for 
an idea, not for any strategic or economic reason. They will keep 
fighting for that idea forever if they must. They will not accept 
preconditions. We have made much in the U.S., last month, of 
Afghanistan becoming the longest war in American history, surpassing 
Vietnam. Military leaders as high as General Petraeus have said there 
is not a military solution in Afghanistan. For these fighters, this is 
true, because there is no war that is long enough to outlast an idea.
    Because of this, the talks must happen. All wars end in talks. Not 
having reconciliation discussions is regarded by some as an option. But 
I do not see that as an option, because without talks this war will 
never end.
    I must admit, it is not easy for me as a women's rights advocate to 
recommend that reconciliation talks must take place. The Taliban were 
and still are notorious for extreme mistreatment of women in all areas 
they have touched, from public beatings to the imprisonment in the home 
to the fear of going to work, to school, and to move about without a 
male escort to the public executions for crimes of ``honor.'' The human 
rights violations of women and other ethnic minorities such as the 
Uzbeks, the Hazaras, the Tajiks--who faced similar mistreatment to that 
of women--is inexcusable, unforgettable, and should never be tolerated. 
I think we all recall the great sadness with which the world watched 
the Taliban explode the sixth century Buddhas in the Hazara community 
for being un-Islamic. This hatred of the ``other'' extended arbitrarily 
to numerous groups. There were killings just for being the wrong tribe.
    The question is how one can reconcile between severe oppression 
imposed on ethnic minorities and women in Afghanistan and between the 
need to take all steps possible to end the war and create peace and 
stability in the country. Thus the how we do this becomes equally 
relevant and important as what we need to do for reconciliation in 
Afghanistan.
    I propose an arrangement that honors those ideals while framing 
them in a context of our shared reality of loss, oppression, and 
exclusion, using that common experience to sketch a common future where 
these crimes never take place again. This is the common experience of 
real Afghans, and it must be strongly represented at any negotiating 
table that takes up the task of determining the future of Afghanistan. 
No solution will be accepted and embraced by the larger society if it 
repeats the same power structures and the same players that led to the 
destructions and oppression of the country. Thus, we must ensure 
societal acceptance of the process that transcends beyond the political 
elite of Kabul and into the rest of the country. We must craft a 
participatory approach that has the buy-in of those at the grassroots 
level (for, after all, it is people at the grassroots who will be the 
critical group in upholding any agreement, informing on its violations 
and will be most impacted by its consequences). Let us ensure that 
these peace negotiations are truly representative talks that include 
all members of the society, and not the same old power structure.
    Full and meaningful inclusion of women in this process is one 
proven method of achieving this kind of representative dialogue that 
adequately reflects the concerns of the country's citizens. Women have 
insight on the practical implications of high-level policies and 
negotiations. They know the intricate patchwork that is the daily lives 
of communities at the grassroots level in ways that may not be 
reflected when only talking with political elite. The richness of their 
perspective has a definite impact on the content of negotiation and the 
nature of any agreement. For instance, a 2009 survey Women for Women 
International conducted in Afghanistan found that survey respondents 
considered that political instability and incompetence of politicians 
were the biggest political problems they faced at both the national and 
local levels, followed by corruption. Taliban presence was third in 
order of importance. This finding points to not only women's interest 
in negotiating peace with all Afghans, including Taliban, but also 
reflects popular distrust of processes that are purely managed by the 
government.
    Records from the peace negotiations experience of other countries 
also shows that that when women are more included in peace negotiation 
and peace maintenance, there is a higher chance of those agreements 
having real impact. Women must be included at the negotiating table in 
no less than 30 percent representation, following U.N. Security Council 
Resolution 1325 on Women, Peace and Security. This is a chance for the 
U.S. to take the lead in creating model negotiations that are 
representative, inclusive, and address the role of women in 
contributing to and upholding peace negotiations for lasting impact.
    Similarly, ethnic minorities such as the Uzbeks, Tajiks, and 
Hazaras must also be represented. Their contributions to the discussion 
and buy-in to the results are critical for the longevity of whatever 
peace is agreed. Their voices also bring a balance of power and other 
elements to the discussion that can not be insured in talks that are 
exclusively Taliban-Afghan Government.
    Changing the dynamics of negotiation with the inclusion of women 
and ethnic minorities can give an upper hand to the U.S. and Afghan 
Government in ensuring accountability, credibility, and sustainability 
of whatever agreement is ultimately negotiated. It is time that these 
perspectives be taken in serious consideration, beyond symbolic 
representation of women's voices and into real, equal, and respected 
representation that reflects the importance of their role vis-a-vis 
keeping hope and building prosperity and sustainable solutions in 
Afghan Society.
    It is apparent that reconciliation will proceed, with or without 
the United States. What is key is that the U.S. play a leadership role 
in ensuring that the process is representative, constructive, and that 
it operates effectively, within clearly defined parameters or 
``redlines,'' without sacrificing our American ideals of democracy, 
human rights, rule of law, justice and equality for all.
    How do we do this? The U.S. can support reconciliation, but it must 
do so the right way. And the right way requires a great deal of 
prudence and courage. The U.S. must enter into this debate with its 
sense of history and commitment to its core values close at hand. It 
must draw clear redlines around the scenarios in which it will support 
reconciliation, and be prepared to back them up with clear consequences 
if those boundaries are crossed.

    I invite you to envision the following scenarios:

    1. Clear boundaries are not defined around who is eligible for 
reconciliation, which leads to false reconciliation with the 
``irreconcilables.'' This is the scenario in which hardliners like 
Haqani are brought into government, which as I explored earlier would 
result in civil war. Afghanistan is a decentralized country where 
people outside the capital have seen that the government cannot protect 
them and have hence turned to local tribes for protection. In this 
scenario, the central government would be incapacitated by infighting 
between representatives of warring tribes. Without sounding too 
alarmist, I warn you that this option could lead to tribal war. At last 
week's Kabul Conference, Karzai proposed empowering local militias. 
Please don't misunderstand--``local militias'' are ``tribal'' militias. 
Empowering local militias is empowering opposing tribes that already do 
not get along and now have an elevated means of disagreeing--through 
more violence. As students of history, we remember that this was tried 
once in Afghanistan, with the decision to empower the Dostum militia 
under the Najib government, 20 years ago. Najib empowered this militia 
and it ultimately used its new power to wage war against him. 
Empowering local militas means civil war.
    It is important to recognize that if there had been a vetting 
process to answer that important question of ``with whom shall we 
reconcile?''--if there had been women and many tribes at the table, 
they would have been able to distinguish between the reconcilable and 
the irreconcilables. But without appropriate vetting, without a clear 
understanding of our answer to our guiding question, it does not work.
    Bottom line: The U.S. leaves, blanket reconciliation with no 
relevant vetting mechanism causes Afghanistan to descend into tribal 
war, and the country remains a regional and international security 
threat. Whatever the outcome of this peace reconciliation, it's sure 
not to be peace.

    2. A second option that has been increasingly discussed in the 
media and even in some influential political circles in Washington is 
the approach of ``de facto separation''--that is, forgoing 
reconciliation and essentially ceding the south to the Taliban and 
concentrating U.S. efforts at promoting peace and development in the 
North, dividing Afghanistan into two. From the Afghan perspective, this 
is not an option, as the society is not as neatly laid out as this 
scenario would have it. In the North there are some Pashtuns, in 
addition to the Tajiks and Uzbeks. In the south there are some Tajiks 
and Uzbeks, in addition to the Pashtuns. Afghanistan is a multiethnic 
society and attempting to divide it into two perfectly separate parts 
is impossible. This would only spark infighting within each of the 
parts, leaving neither part happy nor stable, not to mention what would 
happen to human rights of minorities like women and ethnic minorities.
    Bottom line: The U.S. makes things worse than they were to begin 
with. In an attempt to salvage the North by sacrificing the South the 
U.S. will lose both, with strong potential for civil war.

    3. Bring the moderates to the table through an appropriate vetting 
mechanism, but without effective enforcement of the redlines. This is 
an improvement, which doesn't immediately ignite revolt, but it is 
still insufficient. With relevant preconditions for participation there 
is the opportunity for constructive talks, but it is important to note 
that these preconditions are insufficient in their current form: 
``renounce violence, renounce al-Qaeda, embrace the constitution'' is 
not enough. We've seen the standing government trample the principles 
enshrined in the constitution; what reassurance do we have that the 
insurgents wouldn't do the same? For instance:
    a. In February, national police were complicit in the public 
beating of two women.
    b. Not 1 month ago, a provincial governor publicly slaughtered a 
member of the national police.
    c. Last year, Karzai himself shunned the constitution when he 
signed into law a measure severely curtailing the rights of women of 
the Shia minority, prompting outcry at home and internationally.
    All three cases indicate the level of seriousness with which 
members of the current government consider the tenets of the 
constitution. This is not democracy, its thuggery. It is the same sort 
of behavior for which we malign the Taliban. Given this apparent 
disrespect for the constitution, what assurances do we have that 
promises to renounce al-Qaeda would be given any more credence?
    It is apparent that not only must our preconditions for 
reconciliation be expanded to include explicit language about the 
values we hold most dearand Secretary Clinton's remarks at the Kabul 
Conference last week gave an excellent indication that women's rights 
are among them--but additionally, it is clear that we must go one step 
further: we must back them up by tying our preconditions to firm 
enforcement mechanisms that we are prepared to exercise.
    Bottom line: The U.S. leaves without ensuring appropriate 
enforcement mechanisms of its stated preconditions and only a cosmetic 
peace is achieved in the face of an established political culture of 
impunity for broken promises where the values of democracy and justice 
and the principles enshrined in the constitution are concerned. A 
corrupt regime presides over a population who has little faith in it, 
laying the foundation for future unrest.

    4. The fourth scenario is the only viable option. In it, the U.S. 
supports reconciliation, but only through a clearly defined vetting 
process that is conducted by a representative sample of the Afghan 
population, according to established parameters around who is and is 
not eligible for reconciliation (these should eliminate from candidacy 
war criminals and individuals with a history of human and women's 
rights abuses, and all participants should explicitly pledge to uphold 
the rights of women, minorities, and all Afghans to enjoy social, 
economic, and political participation), tied to real enforcement 
mechanisms that will hold these pledges to account. This means setting 
a tone of gravity when drawing redlines by vowing, for example, to 
withdraw assistance if they are crossed. If the Afghan Government 
starts prohibiting girls from going to school or women from running for 
office; if rule of law is sacrificed for thug-style enforcement; if 
individuals are harassed or killed for being a minority, then the U.S. 
needs to be prepared to reinforce its standards with real consequences. 
Additionally, the U.S. must bear in mind the considerable challenges 
associated with this option--it will require considerable enforcement 
on the ground as well. In its current state, Afghanistan does not have 
the capacity to enforce these preconditions. The justice sector not 
only lacks the capacity to process the numerous human rights abuses and 
other legal infractions that exist, it is also considered the most 
corrupt by Afghans. There are few female lawyers, and the ones that do 
exist are threatened or attacked for doing their jobs. Given this 
ground zero of the justice sector, holding Afghanistan to stated 
standards is going to require America to help build the domestic 
capacity to carry them out. This is neither an easy nor a quick task, 
but it is essential to the success of reconciliation efforts.

    This is a discussion of U.S. national interest and practical and 
moral leadership in Afghanistan today and in the future. This is about 
the creation of a U.S. legacy that changes the patterns of past 
experience in Afghanistan. We need not abandon women in thinking there 
are only two options: either Taliban or Wahhabi sufi action. We must 
consider as a real possibility that there is a third option available 
to Afghanistan, one that honors Muslim perspectives and that is 
consistent with Afghan culture, history. and religion. And this is 
where we can use to our advantage those Muslim-majority countries that 
have been allied with the U.S., whose interpretation of Islam and 
politics are consistent with international human rights standards.
    If we must cut a deal with Pakistan, and we may have to, what we 
have to make it clear that Afghan women cannot have lesser rights than 
women in Pakistan. Pakistan may be given no leeway to getting away with 
promoting a regime that would perform human rights and women's rights 
violations of the sort that it would not be tolerated in Pakistan 
itself.
    Second, the U.S. should consider working with other more moderate 
Muslim-majority countries than Pakistan, such as Turkey. Turkey is 
already building schools and contributing in troops in Afghanistan. 
Turkey provides a much better model for an Islamic solution for 
Afghanistan rather than does Pakistan. Turkish leadership would be 
critical in forming a coalition of Muslim-majority countries (such as 
Malaysia and Indonesia) to provide a solution for Afghanistan where 
protection of women and minorities is enshrined.
    In sum, this is an issue about the American legacy in a region of 
geopolitical and strategic importance. It is about honoring the 
American ideals of justice, equality, democracy, and freedom, in a land 
where the institutions that would uphold these ideals are fledgling and 
under severe attack. It is about showing Americans, Afghans and the 
world what 9 years of war, of tremendous loss of life for Afghans and 
for American troops, of incredible expense, was intended to accomplish: 
the creation of a state that can and does honor and protect the rights 
of liberty and justice by the people and for the people. This can be 
achieved through a careful reconciliation process in which we are clear 
about our goals and our redlines, and where we look to leadership of 
internationally agreed human rights standards and model Muslim-majority 
countries to achieve an inclusive and sustainable peace that will be 
palatable to the people it most concerns: Afghans themselves. Let us 
not lose sight of that now.

    The Chairman. Thank you very much.
    Dr. Kilcullen.

 STATEMENT OF DR. DAVID KILCULLEN, NONRESIDENT SENIOR FELLOW, 
       CENTER FOR A NEW AMERICAN SECURITY, WASHINGTON, DC

    Dr. Kilcullen. Mr. Chairman, Senator Lugar, members of the 
committee, thank you for having me today to talk to you.
    I'd like to back off a little bit from the detail of 
Afghanistan to start with, and then come back to the issue of 
Afghanistan from the standpoint of what the broader historical 
record of counterinsurgency tells us about how negotiations 
normally play out. There have been approximately 385 examples 
of insurgencies and civil wars since the end of the Napoleonic 
Wars in 1815. So that gives us a fairly substantial body of 
data to look at and to understand what the general patterns 
are.
    I was personally involved in seven of those campaigns, 
including the war in Iraq, where I served under Ambassador 
Crocker's leadership in his embassy, and I just want to take a 
minute to acknowledge the outstanding leadership of both him 
and General Petraeus in Iraq in a situation that was in some 
ways rather similar to the situation in Afghanistan.
    If you look at that big body of data--and the 385 examples 
are about 83 percent of total conflicts worldwide since the 
start of the 19th century--what you find is that the government 
usually wins in a counterinsurgency environment. In about 80 
percent of cases, the insurgents lose and the government 
succeeds.
    But if you look at the examples where the government wins, 
there are usually two factors present. First, the government is 
fighting in its own country; and second, it is willing to 
negotiate. And if you are fighting in your own country and 
you're willing to make a serious effort to negotiate on the 
underlying political factors that drive the insurgency, then 
you have an extremely good chance of success, around 80 
percent.
    If you're fighting in somebody else's country and you are 
not willing to negotiate, your chance of success is somewhere 
around 20 percent. I'm not saying that's how it will be in 
Afghanistan. I'm just saying that's what the data tends to 
suggest as the most probable outcome.
    Since we're not fighting in our own country, the closest 
thing we can have to substitute for that is a viable local 
partner in the Afghan Government. So without a partner, without 
a negotiation plan, we don't have a very good chance of 
success. If we just negotiate but we don't have a viable 
partner, we also don't have a particularly good chance of 
success. We need both.
    There are normally two patterns in which the negotiation 
process plays out at the end of an insurgency. The first one we 
may call the Good Friday model, after the Good Friday Accords 
which ended the war in Northern Ireland. The basic outline of 
that kind of negotiated solution is that the insurgent agrees 
to put the weapon down and rejoin the peaceful political 
process and no longer engage in violence, in return for a seat 
at the negotiating table and a role in that political process. 
So in the Good Friday Accords the IRA agreed to put their 
weapons out of reach, refrain from any future violence, and in 
return received a lot of recognition of their political 
leadership and seats at the table and literally in Parliament 
as part of that result.
    That is one of the examples or one of the typical models. 
The other typical model is where a negotiation process results 
in a split in the enemy, where the government offers something 
to the insurgency which only some insurgents are willing to 
accept and others are not, and it results in a breakup of unity 
amongst the insurgents, which is probably a good result from 
the government's standpoint.
    Again, there's an Irish example of this in 1920, when the 
British finished their war against the Irish and offered a 
solution which some members of the IRA accepted and others did 
not, and this resulted in the Irish civil war.
    So there's nothing necessarily wrong with negotiating. The 
historical record makes it pretty clear that that's how you win 
these things. But you have to know what you're doing, what kind 
of solution are you looking for. Are you in the early stages of 
just trying to hive off small, perhaps less committed, elements 
from the enemy's group, or are you in the final stages of 
seeking some kind of grand bargain?
    Most importantly, you must be negotiating from a position 
of strength. I want to echo what Ambassador Crocker said, that 
if we are not in a military position of strength, where the 
Taliban believe that they have more to gain from talking to us 
than from continuing to fight, it's very unlikely that we're 
going to get a solution that lasts.
    But a position of strength isn't just a military position 
of strength. The corruption, the criminality, bad governance, 
bad behavior by Afghan Government officials also weakens our 
position, because we're asking people to make a deal with our 
local partner as well as with us. So anticorruption and reform 
to governance, human rights, the behavior of local officials, 
the court system, all those issues that may not necessarily 
seem to be directly related to reconciliation are actually 
critical in terms of getting ourselves into a strong position.
    I'd like to allow plenty of time for commentary by members 
of the committee, but let me just finish with a couple of 
observations about the current situation. Many of you probably 
know Amrullah Saleh, the former head of the Afghan Intelligence 
Service. He and I were having a conversation about 2 years ago 
in Kabul during the time when two British officials were 
expelled for negotiating with the Taliban. Amrullah said to me: 
If you negotiate with the Taliban without us in the room, you 
reduce the Afghan Government to the level of a faction, and we 
can't tolerate that. I think the point that he was making is 
the Afghan Government needs to be part of any negotiation.
    He also said to me last year: If you leave, we will keep 
fighting. I think in that conversation he was talking from the 
standpoint of Ahmad Shah Mahsoud former deputy head of 
intelligence, a significant Tajik leader, and a very important 
member of the Northern Alliance.
    I want to echo what you said, Mr. Chairman, about the need 
to not forget the Northern Alliance in this negotiation 
process. If indeed we do get to the point where we're ready to 
make some kind of deal with the Pashtun Taliban, you can expect 
the Northern Alliance to get extremely uncomfortable and 
nervous about that process. In fact, the way this campaign goes 
south, if it does, is not that the Taliban marches on Kabul and 
captures the capital city; it's that the Northern Alliance 
decides to go back to fighting the Taliban and we end up in a 
civil war, north-south ethnic civil war, which looks a lot like 
Iraq in 2006. I think that's the real concern here, that we 
need to ensure the Taliban are not the only people that are 
part of any future solution, but that also the ethnic groups, 
the Northern Alliance, the Parliament, the other major players, 
are part of that negotiation process.
    I also want to echo what Ms. Zainab said about the 
importance of regional actors. I would include Iran in this 
process. It's uncomfortable and unpleasant to think about it, 
but if you talk to Afghans most of them will tell you that the 
Iranians have an extremely significant influence in a lot of 
the insurgency that's happening in the western part of the 
country, and I think it's almost a Gordian knot problem that we 
need to look at the Iranian role in both Iraq and Afghanistan 
before we can come to a solution here.
    The other really important player in my view is the 
Chinese, who are already playing quite a positive role with the 
Pakistanis because of their extremely strong economic interest 
in the stability of Pakistan. I think that we do have 
significant common interests with the Chinese in this respect.
    I would also agree that we should not be negotiating with 
the Haqqani network, although perhaps for a slightly different 
reason. I don't disagree that the human rights record of the 
Haqqani network is terrible, but I also think that they're not 
acting on their own initiative. If you negotiate with the organ 
grinder's monkey, you may as well negotiate with the organ 
grinder himself, and in the case of the Haqqani network I think 
there's someone who stands behind those people that needs to be 
involved in any negotiation.
    A final, sort of cultural point, and I know many of you 
have been to Afghanistan, but Afghans have frequently said to 
me: We don't stop fighting when we start talking; we talk and 
fight at the same time. The Afghan way of war accommodates 
talking and fighting simultaneously. It's very, very common for 
Afghan community elders to call the Taliban at night after a 
big firefight and say: Hey, we kicked your ass today, or let's 
talk tomorrow.
    That combination of talking and fighting is in fact normal. 
It's not how we do business. We fight, then we stop fighting, 
then we start talking. They do both at the same time, and I 
think we need to get our heads around the idea that fighting 
and talking are not necessarily opposites in the Afghan way of 
war.
    So to summarize and defer to your questions, I think we do 
need to negotiate. There's nothing wrong with that. But we need 
to get ourselves in a position of strength both in governance 
terms and military terms before that becomes likely to result 
in a sustainable outcome. And we need to take into account the 
realities of the Afghan way of war in that process.
    [The prepared statement of Dr. Kilcullen follows:]

   Prepared Statement of Dr. David J. Kilcullen, Nonresident Senior 
       Fellow, Center for a New American Security, Washington, DC

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for the opportunity to speak to you today on the situation in 
Afghanistan.
    I would like to make a brief opening comment about three issues: 
the campaign in context, the current state of the campaign, and some 
new developments of relevance to the committee's consideration today.
                     the afghan campaign in context
    The first thing to realize about Afghanistan, in the context of 
counterinsurgency, is that it isn't one. To be sure, an insurgency is 
one component of our problem in Afghanistan today, and therefore a 
counterinsurgency response is one necessary component of our effort 
there. But the effort is much broader than counterinsurgency. In my 
opinion it is best understood as a stability operation: the insurgents 
matter primarily because they destabilize Afghanistan, and they are 
only one of several things that destabilize the country. Bad behavior 
by government officials, corruption and abuse by officials and by local 
power brokers as well as within the international aid effort, 
deliberate destabilization by Afghanistan's neighbors, and a thriving 
illicit drug trade are also critically important destabilizing factors.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If the Taliban were to disappear tomorrow, and these other issues 
were not addressed, then a new Taliban would emerge within months to 
take the place of the old, as the underlying drivers of conflict--
corruption, abuse and foreign destabilization--would not have been 
addressed. This, in fact, has actually happened twice already in 
Afghanistan. The international community defeated the Taliban in 2001 
and again in 2003-04 only to see the movement reinvigorate and spread 
once again. In my judgment, what is driving the conflict is a cycle of 
instability, which we could summarize as follows:
    Afghanistan is experiencing a cycle of increasing instability and 
violence, with four key drivers:
          (1) Corruption and criminality in the government, societal 
        elites and the international assistance effort, which enables 
        and encourages;
          (2) Bad behavior by government officials and power brokers, 
        which in turn creates;
          (3) Popular rage and disillusionment, which empowers the 
        insurgency;
          (4) The war against the insurgents creates opportunities and 
        incentives for corruption and criminality, driving the cycle 
        onward.
    Because this is a cycle, each element in the problem must be 
addressed concurrenty, not in sequence. This implies that extremely 
strenuous efforts at government reform, countering corruption and 
improving accountability are, or should be, key components of the 
campaign, alongside efforts to counter the insurgency. The problem is 
not the insurgents alone, it is the instability they create, along with 
the other drivers of instability. We need to address that instability 
directly, if we ever hope to make the country stable enough so that we 
can leave without thereby destabilizing the broader region.
                         state of the campaign
    We are currently experiencing four major problems in Afghanistan, 
most of which are well-known and of long standing.
    At the political level, our most critical problem is the 
credibility, viability, and legitimacy of the Afghan Government. In 
this form of warfare you are only as good as the government you are 
supporting, and this is a government which lacks credibility in the 
eyes of many Afghans, lacks legitimacy in the eyes of many in the 
international community, and therefore needs extremely substantial 
reform if it is to be a viable partner.
    At the strategic level, the critical problem is the timeline--the 
anticipated July 2011 deadline to begin handing over control for 
security to the Afghan Government. This deadline makes every other 
problem a crisis, it prompts the Afghan population to sit on the fence 
because they believe we are leaving and they fear being targeted by the 
Taliban once we leave, it undermines confidence on the part of the 
Karzai government and so encourages disunity and the seeking of peace 
terms with the Taliban, it creates a fear of abandonment on the part of 
the Northern Alliance commanders which may encourage thoughts of civil 
war or secession, it encourages us to continue seeking short-term, 
quick-fix solutions, and it is deeply damaging to economic confidence.
    At the operational level, the key problem is the continuing active 
safe haven in Pakistan for the Afghan Taliban. Unless this safe haven 
begins to be seriously addressed, the Taliban can survive tactical 
defeat in Afghanistan, retreat to their safe haven and await a 
favorable opportunity to return to the fight once we leave. At the 
tactical level, the key problem remains lack of resources: the lack of 
sufficient troop numbers (especially Afghan troop numbers) to provide 
permanent security presence to the bulk of the population, the lack of 
good-quality police, the lack of local civilian officials who are both 
competent and locally legitimate, lack of certain key military enablers 
and civilian specialists.
    All these problems must be addressed as a matter of extreme urgency 
if we wish to turn the campaign around. All these problems, with the 
exception of the timeline, are longstanding issues in the campaign. And 
all these problems will require congressional leadership of a very high 
order.
                       relevant new developments
    I would like to conclude by drawing the committee's attention to 
certain new developments that may influence your deliberations.
    First, at last week's Kabul conference, there was significant 
discussion of a 2014 timeline for the Afghan Government to assume 
complete security responsibility. I believe this is a positive 
development as it extends the timeline into somewhat more realistic 
territory--but the damage to Afghan public confidence created by last 
year's announcement of the July 2011 deadline will remain unless 
specifically addressed.
    Second, the District Stabilization Framework now being pursued by 
USAID and the U.S. military represents a significant development--
focusing on stability in its own right, at the local level, and 
applying a concerted effort to target sources of instability.
    Third, the committee should note that the Afghan parliamentary 
elections are currently scheduled for 18 September 2010, with 
approximately 2,500 candidates running (roughly 405 of them women). 
Candidates are already experiencing intimidation and targeted killing 
from the Taliban, and from corrupt power brokers--this is an important 
inflection point in the campaign, especially in the light of last 
year's disputed Presidential elections, and thus getting it right is 
extremely important. This will require resources and strong pressure 
for accountability and security.
    Fourth, although civilian casualties remain a very troubling aspect 
of any counterinsurgency campaign, the committee should note that 
significant progress was made in some aspects of this problem under 
General McChrystal's leadership. In the 12 months to June 2010, 94 
Afghan civilians were killed in coalition airstrikes, compared to 226 
in the preceding 12 months. Several thousand innocent civilians were 
killed by the Taliban in the same period.
    Finally, the committee may wish to consider the issue of 
negotiations with certain key leadership elements of the insurgency. 
There is nothing necessarily wrong with talking to the enemy as such--
most successful counterinsurgencies end in a negotiated solution, after 
all--but it is critically important that we talk from a position of 
strength, and I do not believe we are in such a position of strength, 
given the problems in the campaign that I already outlined. A focus on 
reconciliation/reintegration at the local level, as distinct from a 
``grand bargain'' with Taliban leadership, is more appropriate at this 
stage.
                               conclusion
    Thank you, again, for the opportunity to comment on this complex 
and vexing set of issues. I wish you well in your deliberations, and am 
happy to discuss any aspect of my testimony in more detail as needed.

    The Chairman. Thank you very much. Thank you, all of you, 
for your interesting testimony.
    Dr. Kilcullen, do you want to say more about the organ 
grinder behind the Haqqani?
    Dr. Kilcullen. In an open session, Mr. Chairman, I think we 
should probably just say that they're not necessarily acting on 
their own behalf and that we've seen considerable collusion 
between them and, I wouldn't say the Pakistani state, but 
elements within some parts of the national security 
establishment in Pakistan. I would obviously defer to 
Ambassador Crocker on this because he was the Ambassador to 
Islamabad. But I do think that it's important for us to 
consider that not all insurgent groups in Afghanistan are 
necessarily acting on their own behalf and not necessarily in a 
position to negotiate a solution.
    The Chairman. I agree with that, and it is part of the 
complication. But what is it that you think--both you and 
Ambassador Crocker have focused on this issue of strength, that 
you've got to have some capacity. Leon Panetta, the Director of 
the CIA, in June of this year, just about a month ago actually, 
said, ``We really have not seen any firm intelligence that 
there is real interest among the Taliban, the militant allies 
of al-Qaeda, al-Qaeda itself, the network of Jalaludin Haqqani, 
Pakistan-based Tariq-e-Taliban, TTP, other militant groups. 
We've seen no evidence that they are truly interested in 
reconciliation, where they would surrender their arms, where 
they would denounce al-Qaeda, where they would really try to 
become part of that society. We've seen no evidence of that 
and, very frankly, my view is that, with regards to 
reconciliation, unless they are convinced that the United 
States is going to win and that they're going to be defeated, I 
think it's very difficult to proceed with a reconciliation 
that's going to be meaningful.''
    Could you both comment on that, or all of you? Ambassador 
Crocker.
    Ambassador Crocker. I think that tracks very closely with 
what Dr. Kilcullen and I just said, that certainly what we saw 
in Iraq, that there has to be a change in calculations on the 
part of an adversary, where he comes to the point that he does 
not believe that he is going to necessarily outlast us and 
prevail militarily.
    The Chairman. Do you agree with that, Dr. Kilcullen?
    Dr. Kilcullen. I would just add the issue of the timeline.
    The Chairman. I was about to ask you. So that comes to the 
big question, what does the timeline do to that?
    Ambassador Crocker. It's a great question, Mr. Chairman. I 
think that the comments that have been made by senior 
administration officials made clear, at least to me as an 
outside observer, that the July 2011 does not mean that the 
United States is backing out of Afghanistan at full flank 
speed, that there is a lot of nuance and consideration that 
will be given.
    What I worry about is how our adversary is reading that 
timeline. I'm not in a position to evaluate that. But I am 
concerned that they simply see July 2011 as a date on a 
calendar, the point that they have to hold out to, and then 
they're OK. It's why we resisted so strongly in 2007 setting 
any kind of timelines in Iraq. Yet in 2008 we were negotiating 
just that. As Dr. Kilcullen says, timing is everything, not 
just timelines.
    But I am worried about what the impact of this particular 
time line, however nuanced it may be in the American context, 
is on the adversary.
    The Chairman. Let me, if I can--I'm sorry, I didn't mean 
to----
    Dr. Kilcullen. Sir, I just wanted to say that I was in 
Afghanistan a few days after the President's speech last 
December. I spent considerable time talking to Afghans who are 
aligned with the Taliban, not actual members of the Taliban but 
people who are very sympathetic to the Taliban. Their 
impression I would say reinforces what Ambassador Crocker just 
said. They believe that we had stated a date certain, that we 
were going to leave in the summer of 2011, and they immediately 
went out and spoke to the population and said: The Americans 
are leaving in 18 months, as it was then; what are you doing on 
the 19th month? Who are you backing, because we'll still be 
there and they won't be.
    I think we have to not only say that we're going to broaden 
that time consideration to say that it's going to be much more 
conditions-based; we also have to very clearly communicate that 
message to the Taliban and to the Afghan population, or it 
won't sink in. I'm afraid that primarily the way we're going to 
communicate to the Taliban is significant combat action.
    The Chairman. Well, I have to say that in the visits I've 
made to both places I found considerable feedback, kickback, 
pushback, on those very points. I'll say more about that at 
another time, but I understand what you're saying.
    So let's come back then to this question of, accepting what 
you've just said, what is the best way in your judgment to be 
able to show the kind of strength that you think is necessary 
to turn this without getting sucked into an interminable set of 
military ops or an even deeper kind of commitment that you 
can't get out of? Where's the strength going to come from here?
    Could it come, conceivably, through a network of alliances 
not dissimilar to what Ms. Salbi was talking about, that if 
suddenly Pakistan were engaged in a different way, if you had 
Iran--and I know this may be apostasy to some people, but if 
Iran were suddenly in a different dialogue, could you pressure 
things and change them without having to necessarily engage in 
strength through military operations?
    Ambassador Crocker. I think it is a complex process, Mr. 
Chairman, that has to involve all of these things. But the sine 
qua non in my view is changing the calculus on the battlefield. 
That as I understand it is the point of the surge. We still 
don't have the full surge contingent in place yet. This will 
take some time to play out. Obviously, General Petraeus is hard 
at work in figuring out how best to proceed in changing that 
calculus.
    At the same time, I think it makes a great deal of sense, 
building on the Kabul conference, to engage the region. The 
United Nations, I think, can be very helpful here through the 
Special Representative of the Secretary General Stefan de 
Mistura, also a veteran of Iraq, and who of course can talk to 
Iran in a way that we can't. So I think that becomes part of 
it.
    Our ongoing dialogue with Pakistan, as you have said, is 
absolutely vital. General Kiyani has now been extended for an 
additional 3 years. Admiral Mullen, General Petraeus, have 
developed a relationship with him. I think we've got to pursue 
that dynamic. And we have to do all of these things 
simultaneously.
    The Chairman. Dr. Kilcullen, as you answer it--and then 
I'll turn to Senator Lugar--would you just comment on the 
absence of the Sons of Iraq that you had the opportunity to 
work with and the sectarian divide? There seems to be no 
similar capacity within Afghanistan, and how does that affect 
this ability to do what Ambassador Crocker just said?
    Dr. Kilcullen. Yes, Mr. Chairman. I do think it is possible 
to map out a very rough timeline. I agree with the Ambassador, 
I think the first thing we ought to do is to stop talking about 
2011 and start talking about 2014, which is the timeline that 
the Karzai government brought up last week in the conference.
    The second thing we need is a big tactical hit on the 
Taliban. We need to do some very significant damage to the 
Quetta Shura Taliban structure, the Haqqani network structure, 
and groups like HIG and some of the others that are wavering. 
We need to kill a lot of Taliban and we need to disrupt their 
organization. It's unpleasant, but it is just unavoidable. You 
have to do that kind of damage to a terrorist organization 
before it becomes willing to talk.
    Once they've been successfully set back on their heels, 
then we can make a bit of a push on local reintegration, which 
is not again talking to the leadership; it's sucking away the 
weak elements of their coalition. Then they become exposed, 
weakened, they've suffered a lot of damage, and they're ready 
to talk. So you're essentially shaping them, as the military 
says, to be ready to conduct those operations.
    I think that's a process that's going to take us a very 
substantial amount of time, at least a couple of years. So I 
think we need to sort of--it's good that we're having this 
conversation now because we're thinking ahead. We need to not 
necessarily rush to negotiation. We need to shape them before 
we can do that.
    In terms of the Sahawa, the Awakening in Anbar, we didn't 
do that. The tribes did it. The Abu Mahals started it and it 
cascaded down through Anbar on their initiative, and it was the 
leadership of various key leaders, like Sheik Sattar of the Abu 
Rishawi and a variety of other tribal leaders, who got that 
thing off the ground.
    The Chairman. I tried hard to convince George Bush of that 
in 2004, but it didn't work.
    Dr. Kilcullen. I'm going to leave that one there, sir.
    But tribes in Iraq--I'm not sure we should be using the 
term ``tribe'' to describe both Pashtun tribes and Arab tribes. 
They are structured very differently. The difference is not 
that the Iraqis hated al-Qaeda and the Afghans don't hate the 
Taliban. There's 83 Lashgars in Pakistan today already fighting 
the Pakistani Taliban. There's a lot of individual groups 
fighting against the Taliban. The issue is taking that 
individual initiative and spreading it into a broader, 
cascading wave of development like we saw in Iraq.
    I think that the basis for Afghan solidarity is usually the 
district rather than the tribe, and so a locality-based 
approach like we see in the village stabilization program is 
possible. I think we also need to recognize that a lot of the 
tribal elders in Afghanistan have been deliberately killed off 
by the Taliban over the past several years, so that it's a 
weaker structure.
    Combined Action, which is one of the initiatives of ISAF 
right now, and the village stabilization program are probably 
the closest thing we have to the start of some kind of an 
Awakening.
    The Chairman. Senator Lugar, I apologize for going over a 
bit.
    Senator Lugar. Let me recapitulate my understanding of the 
testimony. It would appear that each of you are saying in a 
different way that we must negotiate, but negotiate from 
strength, which necessitates the presence of all the Afghan 
partners at the table, so there's not a lack of representation 
as it pertains to the interests of the north or the south, 
Pashtun or Tajik or others. Additionally, Ms. Salbi points out 
the potential need for representatives of other countries, the 
neighbors, in these negotiations. And as you pointed out, Dr. 
Kilcullen, we must get used to the fact that this may be 
occurring even while we are fighting, that the tradition in 
Afghanistan is not simply that everybody stops fighting when 
negotiations begin, but instead involves ongoing negotiations 
proceeding while fighting continues. And in that fighting, for 
the negotiation to be successful, we have to demonstrate 
strength. You've suggested, Dr. Kilcullen, that critical to 
this end, as bloody as it sounds, is that we kill a lot of 
Taliban, that there is a rather significant casualty toll, 
which is recognized by all the parties, including the Taliban 
and anybody else that we're interested in negotiating with, and 
that such operations are proceeding while negotiations are 
going on.
    Now, let me just ask first of all, as a practical measure, 
how all the parties are pulled together. In other words, who 
invites all the parties to the table or insists that they come, 
because somebody probably needs to take the lead. This could be 
the United States. It could be the United States plus the 
Afghan Government.
    But whether everybody will respond to those calls and for 
what reason is a part of my question. How do we actually get 
the different parties facing each other, granted that fighting 
is going on, strength is being exemplified, and people are 
still being killed while this is all proceeding?
    And in the event that the fighting is proceeding, we've 
talked about the surge that's coming up in Kandahar and the 
fact we don't want to impose too tight a timeline on that. In 
any event, the President is going to have an evaluation in 
December detailing what is occurring on the ground. But what 
if, somehow or other, despite our calculations, fighting begins 
somewhere else? We're always surprised in these hearings to 
find out how diverse the provinces of Afghanistan are, and how 
many different tribes and loci of authority exist, with respect 
not only to just so-called warlords, but the chieftains, as 
well. We assume there's a north and a south and some basic 
coalitions, but then we find out that this is not exactly the 
entire case. The north and west have very diverse 
personalities, and they have different relationships 
historically with Pakistan or maybe other neighbors, as has 
been suggested, with Iran.
    So I'm just simply curious. Let's say we get all of this 
under way. Then it depends upon our killing enough Taliban to 
impress them enough that they are prepared, apparently, to 
finally stop fighting, although they won't necessarily stop 
before the negotiations begin. Is this a reasonable outline? 
But then, if so, can anyone furnish an idea, Dr. Kilcullen or 
Ambassador Crocker, as to how we get the parties to the table 
under these circumstances? And is the killing of the Taliban 
consistent with some of the testimony that we hear, the better 
part of which suggests to the effectiveness of trying to chase 
the Taliban out, scare them, and come into the village and work 
to get some police trained there, liaise with some of the 
village elders, and then hope that they can manage. But then, 
unfortunately, after our efforts cease, the Taliban tend to 
creep back in.
    Where are the Taliban supposed to fight? Where do we find 
them? How do we get into this killing operation that leads to 
decisive military action, when the enemy appears to be all over 
the place and unwilling to fight us on any particular 
battleground that we find useful?
    Could you start with some comment, doctor?
    Dr. Kilcullen. Yes, sir. I think the military term that 
we're looking for here is ``counternetwork operations.'' Within 
counterinsurgency, one of the components is security 
operations, which is the kind of village protection that you 
were talking about, and the police and all those sorts of 
things. That's important. It goes on. It's very important for 
making people feel safe and making them feel confident enough 
to support the process.
    What I'm talking about is a different component of the 
operation, and it is essentially to take apart the enemy's 
network top to bottom with a fairly high tempo of a rolling 
series of intelligence and strike operations. People often look 
at what happened in Iraq in 2007 and think that peace just 
broke out. It did not. A lot of people had to be removed from 
the streets one way or another, by negotiation, reconciliation, 
capture, or ultimately by being killed, before we could get to 
the point where most people were willing to reconcile.
    So I think that it's important to understand that we're 
talking about a relatively small number of people here. We're 
talking about the critical facilitators, the operational 
planners, the bombmakers, the guys who run the suicide bombers, 
those kind of critical nodes in the network. I would argue--
again, we're in an open hearing, but this is happening now. 
We're already doing it, but we need to potentially ramp that up 
and focus a lot of effort on the political outcome that we're 
looking for. We're not just doing this to disrupt the enemy. 
We're doing it to get them to a position where they feel like 
the best solution is a negotiated solution. So it has to work 
hand in glove with an appropriate communications strategy to 
that same bunch of leaders.
    Again, if you want to we can talk about historical 
precedents. There's a lot of examples of where this has worked 
and other examples where it hasn't.
    The only other point I would make is that talking while 
fighting not only is common to Afghans; it's already happened 
several times in the Afghan war to date. The 2008 Mecca process 
which the Afghan Government ran with the Taliban was exactly 
that, and there are negotiations happening in the Maldives as 
we speak. So it's not unusual for people to do this. It's a 
question of, as you said, who you want to have at the table.
    I want to defer to Ambassador Crocker, but also to Ms. 
Salbi about that, because of her idea about Turkey.
    Senator Lugar. Ambassador Crocker, how do we get them to 
the table?
    Ambassador Crocker. It's an excellent question, Senator 
Lugar.
    I think the most important organizational aspect is on the 
Afghan Government side. For all I know, there may be something 
like this already in train, but I would envision an Afghan 
reconciliation committee that is carefully and broadly composed 
to ensure that minorities are represented, the Northern 
Alliance, and others, that serves as the central coordinating 
body for all contacts with insurgents or adversaries, and into 
which the United States and other outside players also feed and 
coordinate.
    Because at this stage I certainly would not suggest that it 
makes sense to imagine a large formal negotiating process. I 
think it's a question of individual contacts, with a committee 
sorting out who is best positioned to make contact with whom, 
to what end, and serve as a repository for the information 
that's gleaned.
    And while both Dr. Kilcullen and I have said it's important 
to negotiate from a position of strength, I don't at all mean 
to imply that we should not be having any contacts with 
Taliban, big ``T'', little ``t'', whatever. I'd like to assume 
we're already doing that. This would be an informational phase. 
Who's out there? What are their motivations? What are they 
seeking? How can they be dealt with one way or the other?
    So that's the process I would conceive organizationally. 
This may be a process in which there is never a large peace 
conference, unless it's after the deal or deals are already 
made. I think, though, having an Afghan-based coordinating 
mechanism that broadly represents the communities and political 
elements of Afghanistan is the central starting point.
    Senator Lugar. Who invites the women to come into the 
conference?
    Ambassador Crocker. Clearly, in I think a properly 
constructed committee, reconciliation committee, there would be 
substantial representation by Afghan women.
    Senator Salbi. May I? I want to take a stab at that. As in 
the military context, there can't be a disconnection between 
the military and what the military does and what's in the 
negotiations for the civilian population, because you can fight 
and kill as many Taliban as you can, but if they go back to the 
village and they are the ones who are talking with the 
villagers and they are the ones who are, whatever, dominating 
the village discussion, then we can't--it's not sustainable.
    It has to be a parallel operation and much more than what's 
happening right now, which is the military getting engaged with 
the civilian population.
    The Chairman. It has to be a--what operation?
    Ms. Salbi. A much more comprehensive process. Right now the 
military does engage with the villagers in diplomatic 
discussions, not enough and not good enough. So that's one 
thing.
    The second thing is who calls the negotiation, I would 
argue actually change the dynamics. I would argue have the 
Muslim coalition countries call the negotiations, in which 
America could be playing whatever role it can, but change the 
dynamics. We are stuck in the dynamics of discussing one form 
of Islam, one extreme form of Islam, vis-a-vis one extreme form 
of Islam, Wahabiism versus Salafism, and we need to change the 
dynamics. It's in Iran's best interests to come, and Iran is a 
moderate Islam in this context. It is--the Taliban or Afghanis 
more likely will respond more positively to a Muslim-dominated 
coalition which is coming from Turkey or other countries than 
the U.N. Frankly, I don't think the U.N. will actually be able 
to pull these negotiations out. Or the United States, frankly, 
because it is seen as an outsider and as an occupier.
    So bring others who are allies of the United States. Yes, 
Iran is very important and we have to figure out how to do it. 
But change the dynamics in which you relax the context of it 
and you don't limit it to only one form of extremism to another 
form of extremism. And Pakistan provides that form of 
extremism.
    Senator Lugar. Thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank all three of our witnesses. I find your 
observations extremely helpful. Ms. Salbi, I want to get--I 
just really want to underscore your point about a country that 
mistreats its women is an indicator of a dangerous country, 
well beyond those who've been victimized.
    Dr. Kilcullen, you point out that we need to have a 
reliable partner if we are the outside force, in order to 
negotiate with the insurgents. And you bring up good 
governance.
    I just really want to underscore this point, then ask you a 
question as to how we can be more effective on good governance 
in Afghanistan. I think the United States understands the 
connections between good governance and the ability to move 
forward on security issues. In 1975 we were one of the leading 
forces in establishing the Helsinki Final Accords because we 
recognized the direct relationship between human rights and 
security.
    Recently we saw in Kyrgyzstan the failure of the United 
States to properly read the government in that country, and it 
caused us a security concern. So I think we understand this 
relationship. Sometimes we forget about this or we don't give 
it the right attention that we should.
    Now we're involved in Afghanistan. We've been involved 
there for a long period of time, and there's a real question 
whether we have a reliable partner. The Afghan Government is 
known for its corruption. There is certainly a lack of 
competence among many of the players in Afghanistan as to 
whether they can negotiate in good faith because of the 
reputation of the Karzai government.
    So I guess my question to you is, How can we be more 
effective in the United States role in Afghanistan, as we are 
talking about building capacity, as we are talking about trying 
to empower the people of Afghanistan and its government to take 
care of its own needs? How can we leverage the U.S. 
participation? We're giving a lot of money. We have a lot of 
troops that are over there. How can we bring about the type of 
accountability, and not just be a source of funds that are used 
for corrupt purposes or a source for adding to the problems of 
final reconciliation in that country?
    Ambassador Crocker, do you have a suggestion here as to how 
we can better leverage the U.S. involvement for good 
governance?
    Ambassador Crocker. Well, it's a vital question, Senator. I 
arrived in Afghanistan at the beginning of January 2002, when 
Karzai had been chairman of the Interim Authority about 10 
days. So for those first few months I was kind of with him 
constantly as he tried to figure out how to approach the most 
overwhelming challenge that I think one could conceivably 
imagine in governance. And 8\1/2\ years later, of course, he's 
still at it.
    Clearly, the challenges are immense. Clearly, the 
performance of the government has in many respects been 
disappointing. But I think that we are doing the right thing 
now in treating President Karzai as our strategic partner in 
Afghanistan. We're going to get nowhere good working against 
him. I do recall during my time in Iraq, particularly in the 
early phase, 2007, there were questions raised, why couldn't 
Prime Minister Maliki be more like Karzai? Now it seems to be 
reversed.
    Yet we stayed the course and, while Iraq is by no means a 
finished work, we did at least shift the trajectory. I think 
that's what we have to do, through very close coordination with 
President Karzai and his ministers, leveraging the influence, 
the considerable influence we do have.
    But there's something else I think we need to do as well. 
Support for a more competent Afghan central government is key, 
but we also need to be engaged locally. Afghanistan has always 
been a decentralized state and society. I think it always will 
be. At this stage, I am not sure the government in Kabul is 
equipped to work local leadership initiatives. We may be the 
indispensable actor, both our civilian and our military 
presence in the provinces.
    This is something we did in Iraq. Baghdad didn't 
necessarily like it, but we saw it as essential to work to 
further local governance in any way that made sense to us and, 
more importantly, to the people of the areas. So I would like 
to think this is a current priority for the administration. I 
think it needs to be, that we work both pieces together.
    Senator Cardin. Ms. Salbi, let me if I might get you 
engaged here. How is the United States role perceived by those 
that are concerned about the current practices of the Afghan 
Government as it relates to protecting the rights of all of its 
people? Is there more expectation here? Is there a better--can 
we do things in a more effective way, and what would you like 
to see the United States do in that regard?
    Ms. Salbi. I think the United States has in Afghanistan in 
the last 9 years, has overpromised and underperformed in 
Afghanistan, and the people do not see a major shift in their 
lives. Yes, we have a lot of good stories about girls going to 
schools and schools being built, the stories we all report on. 
But in truth, when you go to Afghanistan and you feel it on a 
day to day basis it is not felt clear and obvious and in a 
major way in people's lives.
    So yes, it is not felt. And yet it's still the only country 
that has the highest hope of fixing the situation. So there is 
an overexpectation in here as well. Managing expectation would 
be one of it.
    The second one is, we did a survey of Afghan women in the 
grassroots, 1,500 Afghan women, last year. They identify 
security as a major challenge. Second to security was 
corruption, and third after corruption was Taliban. So that 
just puts a context in here of how they are measuring their 
life things.
    The corruption one, the only times in which countries 
change in corruption, which I completely agree with your 
reading about how disappointing and frustrating it is, is when 
there were incentives not to be corrupted or corrupt. The most 
recent experience was actually Egypt when it showed that it was 
one of the top countries, top corrupt countries, in the World 
Bank report, and that scared them enough to hire and invest 
enough in reforming their laws, and now they are one of the top 
10 countries in reform vis-a-vis corruption.
    Iraq is one of the most corrupt countries. I know Iraqis 
who are leaving Iraq right now, not because the security is 
bad, but because the corruption is so bad. So what are the--my 
question back to you is, what are the incentives for the Afghan 
Government not to be corrupt? And if there is a blank check 
that is constantly going to them and no measurements about 
corruption, then why should they be not corrupt, and what can 
we do on this end to do that?
    The third one--and I argue when things are not working, 
then create a third alternative and a third dynamic. In this 
case, then who are the people who are less corrupt, who tend to 
be less corrupt, for a variety of reasons? I would argue 
actually invest in more women and more civilian population. 
Whether it be in the drug-fighting, create viable alternatives 
for women in farming vegetables and fruit, whether it is being 
in security or in infrastructure-building, invest in more 
civilians, just because they tend to be less corrupt for having 
no power of corruption or no history of it.
    So I don't know if that's helpful, but this is what I have.
    Senator Cardin. I'm for third option suggestions, so I 
think that's a good suggestion. I do think there has to be more 
accountability in the U.S. participation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cardin.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    I want to thank each of you for coming. I think it's been a 
great hearing. I have been personally confused by what our 
strategy is right now in Afghanistan, and I don't say that to 
be critical of the administration or anybody else. I think it's 
a complex issue. I know some of my comments last hearing about 
the withdrawal date were not meant to criticize. It just seems 
that we send mixed signals and it's hard for me to understand 
exactly what our strategy is.
    I do think today has been very helpful. Ambassador, you 
talked numbers of times in your testimony about 
counterinsurgency and keep stressing that versus 
counterterrorism. That I think has been the element that has 
confused me most about what we're doing on the ground. I know 
you talked today, both you and Mr. Kilcullen have talked about, 
Dr. Kilcullen, have talked about damaging the Taliban so 
they'll negotiate, and you've talked about negotiating with 
other partners. But what are some of the other elements that 
you view we should be thinking about? I know this is about 
reconciliation today, but as it relates to having a full-blown 
counterinsurgency?
    I know both of you have indicated that that takes time. 
That's the difference between counterterrorism, I think, and 
counterinsurgency. Counterinsurgency takes patience and time. 
And I realize the President's dealing with domestic issues 
here, that people are losing patience. I understand all of 
those things and I am in no way critical. I just want us to get 
it right.
    So those counterinsurgency issues that are not in place now 
would be what?
    Ambassador Crocker. It's a great question, Senator. The 
most fundamental issue I think in a successful 
counterinsurgency now in Afghanistan is the one that Afghan 
women identified, as Ms. Salbi noted, and that is security. The 
thrust of the surge in Iraq, of course, wasn't just the 
additional troops. It was the mission of those troops, which 
was to protect the civilian population. That became priority 
No. 1.
    General Petraeus, of course, is now in Afghanistan and will 
be developing his own tactics and strategies. But I would 
expect that, in addition to administering pain to the Taliban, 
securing the civilian population is going to be a top priority, 
and indeed the two are related. So I think that is absolutely 
essential as a first step.
    As people broadly speaking feel more secure and as 
environments are more secure, it is then more possible than it 
is now for the Afghans, with our support, to get at these other 
issues, such as governance. In all too many cases, as I 
understand it, it's not just that governance is not good; there 
is often really no governance.
    But it's only I think in the context in which security is 
improved for the people that you can then get at these other 
essential elements, which would be governance, better 
governance, including efforts to get at corruption, services, 
economic development. These are all elements, I think, of a 
successful counterinsurgency strategy, but it starts with 
security.
    Senator Corker. I'd like for Dr. Kilcullen to jump in. But 
to both of you, it appears to me that--I think that the stats 
that Dr. Kilcullen gave earlier are kind of fascinating, and 
yet for that security to be real it sort of has to be done over 
the longer term by the Government of Afghanistan itself. But I 
sense recently we're not focused as much on training folks on 
the ground to be able to do that, that our commitment over the 
longer term is lesser in that regard than it's been in the 
past. I may be getting that wrong, by the way, but I'd like for 
both of you to respond to that.
    Dr. Kilcullen. I might jump in initially, sir, in respect 
to your earlier comment. We know roughly how long these things 
take, and again there's a fairly large body of data on this. 
The average successful counterinsurgency takes 12 to 15 years, 
and you can't really rush it because you're talking about, as 
you said, governance reform processes and the building of new 
institutions and creation of popular confidence that just takes 
time. You can't do that quickly.
    I want to make a slightly controversial point, though, and 
I say this knowing that I'm recognized as a counterinsurgency 
specialist. The most important thing to realize about 
Afghanistan in the context of counterinsurgency is that it 
isn't a counterinsurgency. It's a stability operation. Why do 
we care about the insurgents? We care about them because they 
destabilize Afghanistan. We care about Afghanistan being 
unstable because it destabilizes Pakistan, and so on.
    The problem is not the Taliban. The problem is the 
instability. If you were to get rid of the Taliban tonight and 
there were no more Taliban, but not get rid of the other causes 
of instability in Afghanistan, like bad governance, bad 
behavior, human rights problems, corruption, then within 6 
months there'd be another Taliban arise again. In fact, that's 
already happened twice since 2001. We first defeated the 
Taliban in 2001. The international community defeated them 
again in 2003-2004. They keep on coming back because other 
things are driving the campaign than just the insurgency.
    I don't disagree with anything that Ambassador Crocker 
said. I think that all those things are critically important. I 
would just say that counterinsurgency is one of the things we 
have to do within a broader stability campaign. It's not the 
whole campaign. The Afghan Government's behavior is just as 
important a source of instability as the Taliban. Tribal 
fighting in the west and in the north in particular is 
extremely important as a cause of violence. There are a lot of 
other things that are driving the violence.
    So I think we need to conceive of the campaign as a 
stability operation and say that what we're trying to do here 
is to attack the causes of instability and make the society 
more stable. I think what that implies from a governance 
standpoint is that we need to change the mission statement. 
Right now in ISAF, which is the International Security 
Assistance Force, the mission as it relates to governance is to 
extend the reach of the Afghan Government. But if you're 
extending the reach of a government that's corrupt and in some 
key ways is oppressing the population, the better you do at 
that mission the worse it's going to get. We need to change the 
mission to: Reform the Afghan Government. And I think you only 
do that, as Ambassador Crocker said, through bottom-up civil 
society-based, inclusive processes that focus on peace-building 
at the local level rather than just focus on killing the 
insurgents.
    When I talked about the need to do a lot of damage to the 
insurgency, I was talking about one very narrow part of the 
counterinsurgency effort, which is the counternetwork fight. 
And even that counterinsurgency fight is only one very narrow 
part of a much broader stability operation. The most important 
things we can be doing are about giving the population 
confidence, and that really boils down to corruption and 
improvement in governance, not extending the reach of the 
government, but reforming the Afghan Government.
    Senator Corker. May I ask one more question?
    The Chairman. Yes.
    Senator Corker. So again I think this testimony has been 
fascinating. I apologize, Ms. Salbi, for not focusing on you. 
Ryan Crocker I know has talked numbers of times about ``good 
enough government'' in Afghanistan. I realize the Taliban, 
there's a big ``T'', little ``t'', and it's not something 
that's homogeneous. But the part that continues to confuse me 
some about all of these counterinsurgencies, countries or 
stability issues, is what exactly good enough governance is. I 
realize what you're saying is true and I know Ms. Salbi alluded 
to the fact that corruption causes people to leave and 
destabilize the country.
    But what is good enough governance? And when we talk about 
safe haven--I mean, at the end of the day I think that 
Ambassador Crocker was trying to get at the national security 
reason that we want to focus on Afghanistan is the safe haven 
issue to prepare for attacks. But in a country like 
Afghanistan, what does ``good enough governance'' mean, and 
what does that mean as it relates to these outer regions, and 
does that really at the end of the day still stop in pockets of 
a country like that that type of activity from occurring 
anyway?
    So are we really achieving our end as it relates to 
national security?
    Ambassador Crocker. Good enough governance in an Afghan 
context is ultimately going to have to be evaluated by Afghans 
themselves. But I think the parameters are clear. A situation 
in which, in terms of security, not in which there are no more 
security challenges, there are no more attacks by bands of 
insurgents and so forth, but where the Afghan security forces 
are able to deal with these themselves. That's, I think, pretty 
much where we've evolved to now in Iraq, where in advance of 
the August 31 re-missioning of U.S. forces in Iraq we're really 
already there. We're the ready reserve, but security operations 
are ongoing, but they're now conducted by Iraqi forces. I think 
that is achievable in Afghanistan over time.
    But going back to your first question, Senator, the 
training and equipping of Afghan security forces, absolutely 
essential, but this too takes time. We saw what happened in 
Iraq when Iraqi security forces were asked to do too much with 
too little preparation. What we're seeing now is the maturation 
of those security forces. They are now able to take on that 
mission. But it can be absolutely disastrous, I think, to force 
new forces into a fight before they're ready. I would just add 
that caution.
    In terms of nonsecurity services, I think it means giving 
the Afghan people broadly the sense that life is going to be 
better, maybe not for them, but at least for their children; 
that there will be the prospects of education, of economic 
possibility in a reasonably stable environment. But that is 
going to be a lengthy process in its development, and managing 
expectations I think is vital.
    We've gotten ourselves into the difficulty that Ms. Salbi 
has referred to in more than one place of overpromising and 
underdelivering. As we move forward in Afghanistan, I think 
it's very important that both we and the Afghanistan Government 
convey a message that we are committed to a long-term 
improvement in Afghanistan, but it will be just that, long-
term: the prospect, again, of better lives, if not for the 
current adult generation, for their children.
    Dr. Kilcullen. Senator, just to quickly add one comment. 
Again, I agree with Ambassador Crocker. I talk to a lot of 
Afghans about this issue of what is good enough at the local 
level. Most of the people that I talk to, their comments boil 
down to three issues. The first one is an end to human rights 
abuses at the local level, particularly ones that come from the 
police and a variety of other representatives of power brokers, 
warlords, and so on. So it's a sort of negative thing of we 
want to see an end to the sorts of things that are happening 
now.
    The second thing is access to justice. One of the big areas 
where the Taliban has the edge on the Afghan Government is the 
justice system. If you go into the Afghan Government courts, it 
takes months, you've got to pay thousands of dollars in bribes, 
you probably get beaten up or, if you're a woman, you get raped 
for even bothering the system, and in the end they give the 
judgment to somebody who is more powerful than you or pays a 
bigger bribe.
    The Taliban system is free, it takes about half an hour, 
they issue a judgment, and it sticks. So access to justice is a 
critically important issue.
    The final one is community participation in decisions that 
affect that local community, including their own security. I 
think that's just to boil down lots of conversations that I've 
had to the main three issues that most of the Afghans that I 
talk to are calling for.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    There's obviously a growing recognition that there's no 
military solution to Afghanistan. Indeed, many of our efforts 
to secure short-term security gains may be undermining the 
prospects for a long-term political solution. I've said many, 
many times, for many months, I believe the first and foremost 
conclusion we get from this is it underscores the need for the 
President to establish a flexible timetable for the responsible 
drawdown of U.S. troops.
    But, as we're hearing today, it's also increasingly likely 
that we will be called on to support, as appropriate, a 
political solution to underlying problems in Afghanistan. 
Questions and concerns remain about the nature and details of 
any political solution, including whether it will be 
representative, can protect hard-won rights and freedoms and 
can address broader ethnic, religious and regional fissures, as 
well as negative perceptions of the government. I am already 
benefiting greatly from what I'm hearing this morning.
    Let me go to Ms. Salbi and have her say a bit about the 
fact that there's been this emphasis on reintegration of 
fighters and reconciliation with insurgent leaders, but there 
are also broader underlying tensions in Afghanistan that need 
to be addressed, including ethnic and regional tensions and a 
sense of alienation from the government on the part of segments 
of the population.
    How can we pay more attention to addressing these kinds of 
issues as part of any kind of political solution?
    Ms. Salbi. I think we must include ethnic minorities in any 
discussion. I think it's the overpromise, underperform part. 
When we include, whether it is women or whether it is ethnic 
minorities, it is in symbolic ways. So it's immediately 
transparent to everyone: Oh, they invited one Tajik or one 
woman out of hundreds of women or hundreds of members.
    So I think the political will to actually make a very clear 
statement, we're not including you in symbolic ways, just to 
check a box, that we're actually including you in a thorough 
place, one.
    Second, they have information. I wish we'd learn about 
Afghanistan from their perspectives, because their insight of 
what's happening on a day-to-day basis is very different than 
the insight you get from Kabul. My favorite expression is that 
there are two Afghanistans, the one that you see in Kabul and 
the one that you see in rural areas, and there are two 
different stories and two different realities.
    It's in our interest to include them in real ways, not in 
symbolic ways, because they shed light on things that we do not 
know on a daily basis and definitely do not know with the 
political elites.
    So I would say these are the two things, is how do we make 
an effort and how do we have real resource allocations to 
ethnic minorities. I think I would add, if I may, on the ``good 
enough government,'' it's infrastructure building. At the end 
of the day, people want a decent job and a decent school for 
their kids and a decent home. That's all what they measure at 
the end of the day. Unless we make concrete efforts to show a 
real investment in making these simple homes, which are much 
cheaper, by the way, than a lot of the military tactics that 
we're talking about, but still symbolically goes a long way.
    So unless we will make concerted efforts to invest in the 
minorities, both in giving them the space as well as investing 
in the improvement of their lives, it's so far seen as very 
symbolic gestures and not real.
    Senator Feingold. Thank you.
    Dr. Kilcullen, the Afghan Government's track record gives 
little reason to believe that it will pursue a broad and 
inclusive reconciliation process rather than relying most 
likely on back room deal-making with warlords, which could 
alienate the broader population. Karzai's recent decision to 
allow the amnesty law to go into effect appears to speak to 
this tendency.
    In your view, would such a deal-making process garner the 
broad support needed to bring lasting stability?
    Dr. Kilcullen. Senator, we were talking about this before 
on a couple of occasions and I stand by what we sort of agreed 
on last time, which is that they will never make these kinds of 
efforts to inclusive negotiation without significant 
cooperation and pressure from the international community. I 
think it has to not only be the United States--and I agree with 
Ms. Salbi on this issue. We don't necessarily have the position 
of an honest broker as far as negotiations are concerned. But 
it cannot be left to the Afghan Government by itself or we 
won't get the result. I think you need to have both national 
and subnational participation and you also need to have 
regional participation. I think those things are very important 
as incentives to get the Afghan Government to negotiate in good 
faith. If you don't do that, then you're going to end up with 
similar back room deals to what put the same warlords back in 
charge after 2001. So I agree with you.
    Senator Feingold. I want to elaborate on that; this relates 
to the answer you just gave. In his preliminary assessment, 
General McChrystal found that our partnerships with 
``polarizing and predatory power brokers'' had undermined our 
efforts to stabilize Afghanistan. You're already suggesting 
this, but our relationships with these actors continue and it's 
making a political solution more difficult.
    Are you saying the United States continues to rely on these 
warlords and that this is contributing to the instability? Is 
that what you're saying?
    Dr. Kilcullen. I don't think I was going that far. I think 
all I'm saying is that there are a lot of sources of 
instability in Afghanistan. A lot of them in fact originate 
from our own aid programs and from our own military presence. 
So there are a lot of causes of instability in Afghanistan. The 
Afghan Government is one of the big causes, and I think it's 
very important not to focus solely on the Taliban and say, if 
we just got rid of the Taliban everything would be fine. We do 
need to do that, but that doesn't get you where you need to be. 
You have to look in a much more broad manner at all the sources 
of instability that are driving the conflict.
    Senator Feingold. Say a bit more, if you would, about how 
the aid programs add to instability.
    Dr. Kilcullen. There's a very interesting study recently 
conducted by Mr. Andrew Wilder from Tufts University in Boston, 
looking at United States aid programs in Afghanistan. He finds 
a very strong correlation between actually lack of stability 
and lack of security and high U.S. aid spent. Now, that is not 
the fault of the aid program or the people that are working on 
the ground. I've worked very closely with both NGOs and the 
USAID officials and they're doing an awesome job.
    It's because we have a policy of putting the majority of 
our aid into the least secure areas, what you might call a red-
first policy. If you look at a map of Afghanistan and you think 
of red areas as being the areas that are heavily Taliban-
affected and green areas being the areas that are safest, the 
bulk of United States foreign assistance goes into the least 
safe areas, which by definition are the areas where 
accountability is weakest because you can't get out and observe 
your programs, you can't work with viable local partners, it's 
very difficult for aid officers to go out and see what's going 
on, and indeed there are a lot of armed local power brokers who 
are taking advantage of our presence.
    I've been to some villages in Afghanistan where people say: 
Look, there's the mosque that you built us with the CERP money, 
and there's the mosque you built us with the USAID quick impact 
project money, and there's the mosque that the NGO built, and 
they've got three buildings out of one program based on our 
inability to coordinate because it's a very violent area.
    Similarly, if you go to the north of the country you hear 
officials say things like: Who do I have to shoot to get some 
assistance around here? If there was more violence in my area, 
maybe I'd be getting more aid.
    I think we need to take a different approach to the 
provision of assistance and look at what I would call stability 
programming, look at what are the things that are specifically 
creating violent instability in an area and work with the 
community on a similar basis to the national solidarity 
program, which you may be aware of, to resolve those issues.
    If you think about how NSP works, there is a community-
based committee which must include one woman, so it has at 
least three members. If you look at the Afghan parliamentary 
elections that are about to happen, 2,577 candidates, of whom 
405 are women. That's about one in seven. So again, the systems 
that the Afghans set up don't necessarily exclude ethnic 
minorities and women. If you let them do it themselves and you 
work with them in a constructive manner, you can often have a 
better result.
    Senator Feingold. Thank you for your answers.
    Thank you, Mr. Chairman.
    Mr. Casey.
    Senator Casey. Thanks very much.
    I thank you each of you for your testimony and for your 
presence here today.
    Ambassador Crocker, I think you and I have spoken about 
this conversation that we had back in 2007 at least once 
before. You may not remember it, but when I was in Iraq in 2007 
we were at dinner one night and I was complaining about 
President Bush's language as it relates to our objectives in 
Iraq. I asked you, how would you--I'm not sure how I asked the 
question, but something along the lines of: How would you 
define success, or how do you define the objective and then 
therefore our success in achieving that objective?
    You said at the time that the language that you use, which 
I thought was very helpful language in terms of describing what 
we had to achieve there, and therefore I asked you the same 
question as it relates to Afghanistan. At the time you said 
that the way you described the objective was ``sustainable 
stability.''
    I ask if you can analyze the objective in Afghanistan, or 
what should our objective be and our success in achieving that, 
and can you use similar language and should that be the way 
that we define success in Afghanistan?
    Ambassador Crocker. Well, thank you, Senator, for not only 
recalling what you said, but also what I said, because I would 
have been hard put to dredge it up. But I did use that phrase.
    Senator Casey. You got a lot of visits, right, in those 
days.
    Ambassador Crocker. I did use that phrase and it is what 
I'm trying to get at. It's another country, another time, so 
I've got a different phrase, and that's ``good enough 
governance.'' But it means the same thing, and that gets at Dr. 
Kilcullen's point. However we define terms--for me, 
counterinsurgency is a very broad process. It involves all of 
the nonkinetic elements that he refers to in the context of 
stability operations. But I think we mean the same thing here.
    In an Afghan context, that would mean a situation, as I 
described earlier, in which--not in which there are no longer 
security challenges and peace and harmony reign supreme, but in 
which, roughly like Iraq, there are security challenges, but 
Afghan security forces are able to deal with them, with us 
providing perhaps some logistical or special systems support, 
but we're not in the fight; they are.
    That would be sustainable security stability. Sustainable 
stability more broadly speaking in Afghanistan is going to be a 
huge challenge, for all the reasons you've heard from Dr. 
Kilcullen and Ms. Salbi already--the pervasiveness of 
corruption, the absence of governance in so many parts of the 
country, the absence of services. Security is the key, though, 
and I would certainly endorse what Dr. Kilcullen said, that 
assistance that is meaningful, in the sense of changing the 
lives and expectations, has to follow security. It can't 
precede it.
    One of the ways we got into trouble in Iraq was doing major 
projects in areas that we then couldn't secure. So we've got to 
be very careful about that in Afghanistan.
    So ultimately the hardest challenge may not be the effort 
at security, as hard as that is going to be. It will be the 
other elements in a stability operation/counterinsurgency that 
are nonkinetic. That is why again our partnership with the 
Afghan Government to develop some common views of things that 
need to get done and some tactics for getting them done, but 
also working this bottom-up with local representation, local 
services, in which we will play a major role at this juncture, 
as we did in Iraq at a certain time, and with the development 
and nurturing of civil society, are all going to be very 
important in getting to sustainable stability Afghan-style.
    It will in my judgment be a harder lift than it was in 
Iraq, as hard as that was.
    Senator Casey. Thank you.
    Dr. Kilcullen, I wanted to highlight just briefly part of 
your testimony and ask you a question about it. You highlighted 
four major problems. One is the credibility, viability, and 
legitimacy of the government. Two is the timeline, which you 
spoke of earlier. Three was the continuing active safe haven in 
Pakistan for the Afghan Taliban. Third--fourth, I should say, 
is lack of resources.
    I wanted to get to that third one, what you describe as a 
continuing active safe haven in Pakistan for the Afghan 
Taliban. A number of us when we--I remember being in Kabul in 
2009, got a briefing on what was then described as the three 
insurgencies: Quetta Shura, Haqqani, and then I guess the 
acronym HEG, H-E-G, at the time.
    I'd ask you I guess two questions. One is, based upon what 
you know in terms of what's happening on the ground militarily, 
is Haqqani still the biggest threat to our troops in achieving 
a measure of success militarily? And two, how do we get at this 
basic problem--or what's the best both tactical and strategic 
approach to this problem No. 3 that you highlight, the active 
safe haven for the Afghan Taliban?
    I know that's a lot, but if you can just take a crack at 
it.
    Dr. Kilcullen. Yes. I would refer you to a paper that just 
was published a few days ago by a guy called Matt Waldman, who 
is a researcher at the Carr Center for Human Rights at Harvard 
University. It's called ``The Sun in the Sky,'' and it's a 
study of the Afghan Taliban's relationship with the Pakistani 
ISI. It is based on a substantial number of open-ended 
interviews with Taliban commanders conducted in Afghanistan 
over the past 12 months. It's a very current study.
    It suggests that the relationship is extremely close, 
operationally active, and that to a certain extent even the 
Quetta Shura Taliban, but certainly the Haqqani network, act at 
the direction of some elements of the Pakistani national 
security establishment. That's not to say that the Pakistani 
Government is directing traffic. It's saying that some people 
in the organization are doing so. I think it's worth taking a 
look at that for some of the detail that you're looking at.
    How do we deal with it? There isn't a military solution. It 
has to be political and it has to be a solution that takes into 
account Pakistani interests, that understands that the 
Pakistanis are concerned about a power vacuum in Afghanistan, 
they're concerned about their long-term relationship with 
militant groups, which they can't sever that relationship 
because then they'll lose visibility and lose control of what 
those militant groups are doing. They're concerned about the 
presence of the Pakistani Taliban, but to some extent they see 
the Afghan Taliban as an insurance policy in case things go bad 
in Afghanistan.
    I'd also point out that the al-Qaeda has been, although 
it's had a very destabilizing effect on Pakistan, it's also 
been the source of a very large amount of international 
attention and about $16 billion in international assistance. So 
I'm not necessarily sure that everybody in Pakistan sees they 
have a very strong incentive to get rid of that goose that lays 
the golden egg.
    But I would actually defer to--we have the former 
Ambassador to Pakistan sitting here, sir. I probably said a few 
things that you would disagree with, Ambassador Crocker. Do you 
want to comment?
    Ambassador Crocker. It is something that we wrestled with 
during my time in Pakistan, 2004 to 2007, something we are 
still wrestling with today. It remains a hugely complex issue 
involving history, capacity, and views of the future. That's 
why I think the signal of a long-term strategic relationship 
with Pakistan is so important, given the ups and downs that we 
have seen before and, in the Pakistani narrative, when the 
relationship goes down, as it did in 1990, it becomes an 
existential threat to the entire state.
    So they would argue, do we hedge our bets? Yes, we hedge 
our bets, because we're not sure of you and we could pay with 
the life of our state. Self-serving? Of course it is. But there 
are elements of, I think, ingrained psychological truth in it 
as well.
    In terms of the Quetta Shura and the tribal areas, the 
difficulties of effective action by the Pakistanis, even with 
100 percent intent, those difficulties cannot be overestimated. 
The tribal areas have never been under anyone's central 
control, ever. They are juridically separate from the rest of 
the state because that's what the Pakistanis inherited from the 
British. The Raj could not control these areas.
    Dr. Kilcullen has given you some modern reading references. 
One of my favorite reads on the tribal areas, both past and 
present, is Winston Churchill's first book, ``The Story of the 
Malikan Field Force,'' written I think in 1896. It hasn't 
changed.
    The Pakistani army is now engaged in six of seven agencies 
in a way they have not been before, suffering significant 
casualties, with fairly limited success. So it's a question of 
intent, it's a question of capacity, and above all it is a 
question of time. I think we've got to use that time to build 
some stable relationships that will allow incremental progress 
as we move ahead, but it will be incremental.
    Senator Casey. I know we're out of time, but I'll ask, at 
another time ask about whether you think we've got a strategy 
in place to achieve that. But I'm 4 minutes over.
    Senator Kaufman. Thank you, Mr. Chairman.
    The chairman's not here. I just want to commend the 
chairman on these series of hearings on Afghanistan. I think if 
you ever want to--I've said in my experience this is the most 
complex public policy issue that I have ever dealt with. I 
think that these hearings have really been extraordinarily good 
in terms of, if you want to find out what's going on in 
Afghanistan, if you're Rip Van Winkle and you came back, you 
could pull out these hearings and look at them and get a lot 
about it.
    I think of all the panels we've had, this may be the best 
one in terms of the quality of people we have here, and that's 
why we keep wandering off from reconciliation, which is the 
subject, because we don't often get--we've had excellent people 
here, but I want to thank the three of you for your service.
    Ms. Salbi, let's get back to just one question on the 
issue. The Afghan Government would not be considered women-
friendly as it's presently constituted. Dr. Kilcullen has 
talked about one of the solutions to the insurgency is to have 
seat at the table. How does a government which includes the 
Taliban ever work for an Afghan woman?
    Ms. Salbi. A very hard question. It's hard to say yes. What 
I want to highlight, to pick up on Ambassador Crocker's points, 
there were times in Afghanistan--well, first of all, there is 
not even one view of Islam in Afghanistan. Northern Alliance 
have very different views than the Taliban. So there are 
different moderate views. There are alternative moderate views 
within Afghanistan itself of Islam.
    The question is how do we highlight those and how do we 
give those a seat at the table and highlight their views vis-a-
vis the Taliban? So that's one thing.
    The second: No, it will be very hard to reconcile, frankly, 
Taliban's views of women within a government. But is it 
possible to negotiate within an Islamic framework the role of 
women in government? Absolutely. Pakistan actually provides a 
good model for that, having women very involved in their own 
government. Many Muslim countries or Muslim-dominant countries 
provide good models for that.
    I think the discussion is not whether we get defined by 
what Taliban defines Islam. I think the question is how do you 
provide within an Islamic framework, because there are lots of 
viable alternatives out there that Islam provides vis-a-vis 
women and human rights, and how do you highlight that and how 
do you put that at the center of the discussion, as opposed to 
have the Taliban frame the discussion. So that's my answer.
    Senator Kaufman. I don't mean to be tough on this, but 
there surely are many, many models in Islam where women have a 
role. But today we're talking about Afghanistan, and we talked 
about how Afghanistan's different in so many ways from so many 
other countries that have Islamic majorities. Really and truly, 
how does it work?
    I mean, if you were a woman in Afghanistan and you here 
there's a government coming together--the present government, 
which is not friendly--Dr. Kilcullen gave some numbers on one 
in seven, and that's good and it's promising, but it's not a 
woman-friendly government. You add--so there's a model. We've 
got a model out there that could work, but how does that happen 
when you have the governance--and again, Dr. Kilcullen has 
talked at length and so has Ambassador Crocker, about how 
important governance is. I happen to think that's the key to 
this. How does it work when you have a governance that is the 
present government added to the Taliban?
    If you're a woman, how do you go to a woman in Afghanistan 
and say, we've got this worked out, we're going to have 
stability, it's going to work for us in terms of, as Dr. 
Kilcullen says, in terms of our objective stability, we've got 
stability; now, we can have stability, but here's the 
government you're going to be living under?
    Ms. Salbi. You will not have support by women. You simply 
won't have support by Afghan women, and that's why their buy-in 
is very crucial. That's why their inclusion in the negotiating 
table is very crucial, so you make them part of the solution.
    If you're going to isolate them and then tell them this is 
the dynamics, this is the government, you will not have that, 
and you will have women mobilize, as they did during the 
Taliban's time and as American women mobilized for Afghan 
women. I find it very, very hard for any Afghan woman to 
support that.
    But I find it--and I know many Afghan women want to be part 
of the negotiations with the Taliban, they want to engage in--
--
    Senator Kaufman. I have no doubt about the women's desire 
to be part of negotiations. I'm just concerned about everybody 
else at the table. And the table is--again, as Dr. Kilcullen 
said, they cannot be a faction. It can't be us and the 
government's here and the Taliban's here. They can't be treated 
as a faction. So they're the ones who are going to be doing the 
negotiations, the present government.
    Anyway, I'm just raising this. We talk about 
reconciliation, we talk about women. Your testimony was great. 
I hear a lot of things. In the end, there are certain things I 
just cannot picture happening. A government, the present Afghan 
Government supplemented by the Taliban, is one that I just 
don't know how that's going to work in the long run. I see lots 
of things that aren't going to work.
    Ms. Salbi. I think it's possible. I actually really think 
it's possible.
    Senator Kaufman. Good.
    Dr. Kilcullen and Ambassador Crocker, both of you talk 
about the focus on government. We've had a lot of discussion 
about this July 2011 date. Do you think we'd be making the 
progress we've made in terms of the movement of the Karzai 
government on everything from training to governance to shuras 
if in fact we had not had some kind of a deadline?
    Before this deadline was made, President Karzai was talking 
about we were going to be there until 2025. So I thought one of 
the good things about this deadline is the fact that it's 
incentive for governance, which we all agree is the key issue. 
How are we going to get governance to work, how are we going to 
deal with corruption, how are we going to do these things? One 
of the things the July 2011 thing did was say, OK, guys, as you 
have so graphically presented to me how we should present 
things to the Karzai government, this seemed to me to be the 
closest thing to what we could do.
    So can you talk a little about the July 2011 as an 
incentive to the Karzai Kabul government to actually get about 
what they have to do?
    Dr. Kilcullen. Sir, I agree with you. I think that the 
silver lining in the deadline has been its effect on some 
members of the Afghan Government who, particularly officials, 
who have said: We've got a limited amount of time to get this 
right. I think that's very true.
    I do think that on balance it's outweighed by the negative 
effects, and you only have to look at the sudden willingness of 
members of the Afghanistan Government to start negotiating 
directly with the Taliban without taking into account some of 
these issues we just talked about, the collapse in investment 
confidence, so that a lot of people who were planning to invest 
in Afghanistan are no longer planning to, the flight of capital 
that is a lot of resources, several billion dollars, coming out 
of the country since the deadline was announced, the fact that 
two of the most competent members of the Cabinet have been 
fired, primarily because they were people that are unacceptable 
to the Taliban as negotiating partners.
    I think there's been some negatives as well. But I do 
think, like you say, the one positive is that some people have 
woken up and said: We've got to do something different.
    What I worry about more is the effect on the Afghan 
population, that is at the local level, because we now have a 
lot of tribes and a lot of people in the districts who are 
unwilling to back the coalition at the local level because they 
don't believe we're going to stay. I think that's something we 
have to change. It doesn't mean we don't have a deadline. It 
means we have to think about how to communicate both ``You have 
to reform or we're going to leave'' with ``If you do reform, 
we're going to stay and back you.'' It's that kind of either-or 
that has to be in there.
    Senator Kaufman. Ambassador Crocker.
    Ambassador Crocker. I broadly agree with Dr. Kilcullen. 
There are at least four audiences for the time line: the 
American audience, the Afghan Government audience--actually 
five--the regional audience, the Afghan popular audience, and 
our adversaries.
    As I said earlier, I think that the administration has been 
effective with the American audience in creating a sense of 
nuance and differentiation. I am more concerned that the other 
four audiences are not picking up on that. I would like to see 
us find ways to do precisely what you're suggesting, send a 
signal that patience is finite and that we have got to see 
positive direction in a range of areas relating to governance, 
but also signaling perhaps more clearly than we've been able to 
thus far to those other four audiences that, depending on how 
things develop over this coming year, we are prepared to make a 
long-term commitment.
    We talked about the importance of local governance, which I 
think we all believe is absolutely crucial. But that's the 
problem we're into now. Given the incapacities of the central 
government, the only way governance at the local level is 
possible is with our strong support. Yet you're going to find 
few people willing to take those risks if they think that 
support is going to vanish, leaving them there a year from now.
    Senator Kaufman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman, and 
thank you for your words about the hearing.
    Just very quickly, Ms. Salbi, earlier you were talking 
about the jobs, schools, et cetera, and it sounded awesomely 
like nation-building to me, not counterinsurgency even. You're 
nodding.
    Ms. Salbi. I think it's part of the job. I think it's part 
of the deal. If I use Iraq as an example, what the Iraqis in 
areas--there were so many militias out there. What the people 
in that area, in these neighborhoods, were asking for is to fix 
their sewage system, to improve their housing systems, and to 
get better education. It's very interrelated for me with the 
role the militia's playing in these contexts.
    The Chairman. But Afghanistan is not Iraq.
    Ms. Salbi. Afghanistan is worse than Iraq----
    The Chairman. It's way behind. That's what I'm saying, way 
behind. The concept of doing that for the average American 
right now, who's struggling to pay the bills, find their own 
job, grow our own economy, is pretty daunting.
    Ms. Salbi. I think we are competing with al-Qaeda in terms 
of development. I argue that al-Qaeda and members of the 
Taliban are going and addressing why--and addressing people's 
immediate needs. I think we need to--I wrote a whole paper of 
why women are supporting them. When a widow is received by the 
Taliban and said, here's a rice sack, I'll feed you and your 
children for a whole month, just give me a few children to 
train them and recruit them, she's making that choice.
    The Chairman. That brings us back to the nature of 
insurgency. Dr. Kilcullen, we all understand the concept of 
trying to win hearts and minds, but there's a basic question: 
Do we have enough people on the ground and capacity to be able 
to do it?
    And there's another question: Why can't the Afghans do some 
of that themselves? I think a lot of Americans are asking the 
question: Hey, do these people want to fight for themselves a 
little bit? You know, the Taliban don't have--how much money do 
we put into one recruit? How much money do we put in, Dr. 
Kilcullen?
    Dr. Kilcullen. It's roughly $25,000 a year for one Afghan 
private soldier.
    The Chairman. And how much in the training?
    Dr. Kilcullen. I could find out the answer to that, but I'm 
not sure off the top of my head.
    The Chairman. I saw a figure of something like half a 
million dollars or something.
    Dr. Kilcullen. You mean for a unit?
    The Chairman. Yes.
    Dr. Kilcullen. Yes, for an Afghan battalion.
    The Chairman. What do you think it is per Taliban?
    Dr. Kilcullen. You would probably need access to some--the 
audit of some agencies in another country, but I suspect it's a 
lot cheaper.
    The Chairman. Suspect a lot cheaper? I think you're an 
expert enough to know.
    Dr. Kilcullen. It is obviously much cheaper.
    The Chairman. Dramatically.
    Dr. Kilcullen. But the really significant difference is 
between an American soldier in country and a Taliban.
    The Chairman. That's an even bigger difference. That's a 
million dollars or something, I believe----
    Dr. Kilcullen. It's a very substantial amount of money.
    The Chairman [continuing]. Correct?
    Dr. Kilcullen. Yes.
    The Chairman. So the question that a lot of Americans are 
asking themselves is: Hey, if these guys really don't like the 
Taliban, which everybody says they don't--what are the Taliban 
at, 9 percent in the country in terms of popularity?
    Dr. Kilcullen. If that.
    The Chairman. If that. And they don't want the Taliban 
back, correct? So a lot of Americans are saying: Hey, where are 
they? Can you answer that, Ambassador Crocker?
    I mean, it's not as if Afghans haven't been fighting for 
centuries. Do we have to train Afghans how to fight? They 
kicked the Soviets out. What's going on here?
    Ambassador Crocker. Well, I am at quite some distance now 
from any direct involvement in Afghanistan or even Pakistan. 
And acknowledging that there are enormous differences between 
Iraq and Afghanistan, with everything being more difficult in 
Afghanistan, I think there are certain points of comparison. 
And it is why I think at this critical juncture our security 
effort is so important.
    There is in many areas and in many cases simply no 
alternative to the Taliban except for us. Afghan security 
forces are improving, but, as I said earlier, we have to be 
very careful at this juncture not to make the mistake we did in 
Iraq, which is asking them to do too much too soon.
    The Chairman. I understand, but I don't think you're 
getting to my question. I mean, if 50 guys can decide to go off 
and be fed and paid a little bit and sort of taken care of 
sufficiently that they'll find--they aren't all ideologues. A 
lot of them are kids, unemployed, they're thugs, they're 
criminals, they're different categories of Taliban.
    But if they're satisfied to go off and do that, why aren't 
the other folks satisfied to fight back with less?
    Ambassador Crocker. Well, I think that's exactly what we're 
starting to see. Again, I'm just following the press reports, 
but with President Karzai now authorizing the formation of 
local protection forces, I think that's precisely the way we 
should go. Again, it requires local organization. You need to 
have the central government's authority. General Petraeus seems 
to have gotten that. And it may be in some rough respects not 
dissimilar to the Sons of Iraq effort that Dr. Kilcullen was so 
intimately involved in.
    But there again, if we're going to expect young men to take 
up arms locally against the Taliban, they've got to have the 
expectation that in 12 months that we just don't vanish 
completely before there is an Afghan backup that is going to 
guarantee the Taliban does not literally remove their heads.
    So I think we're taking an important initiative here, but 
it's--again, it's time lines and signals to different audiences 
that I was speaking to in response to Senator Kaufman's 
question.
    Dr. Kilcullen. I might just add to this. I agree with 
Ambassador Crocker. I'll go back to something I said earlier, 
that what is good enough governance? It's the local community 
having a say in the critical issues that affect it, including 
security.
    I'll quote to you verbatim from a conversation that I had 
with a local district elder, Mullah Abdul Salaam, who was a 
Taliban leader who defected from the Taliban to the government 
in March 2008. I sat down with him and 11 of his tribal leaders 
about a month after he defected and I said: Why did you decide 
to leave the Taliban and join the government? And he said: You 
don't get it; that's not how it works. He said: I wasn't with 
the Taliban before and I'm not with the government now; I'm 
trying to protect my own population, and I'm going to stick 
with whatever I believe gives the right security to my people.
    And I said: Well, what is that? He said: Well, the British 
came into my district, they disarmed me and then they left, so 
now I'm vulnerable to the Taliban. He said: Give me my own 
weapons back; if I can't have my own weapons back, then I want 
American troops. If I can't have American troops, then I'll 
take the Afghan army, but I don't want the Afghan police.
    That reflects a lot of what I've heard from different 
people at that local village and district level over the last 
few years of conversations in Afghanistan.
    Why are the Taliban willing to fight when members in the 
Afghan army aren't necessarily as willing? First, I think it's 
slightly derogatory to the Afghan Army. I've seen them fight 
pretty hard. But I think your general point is right that the 
motivation of Taliban fighters seems to be more substantial. 
It's largely because in about 75 percent of cases they're 
fighting in their own district and for their own district and 
under tribal elders who they respect, who they know well, and 
they've known since they were a child. That's the difference.
    The Chairman. Is it also that they're fighting somebody 
that they perceive to be an occupier?
    Dr. Kilcullen. I think the biggest grievances that I hear 
from people are actually to do with the Afghan Government, and 
they are corruption, lack of access to justice, and bad 
behavior. What you often hear from people that are aligned with 
the Taliban is that it's the corruption and injustice of the 
government that most concerns them. You also hear them say: 
Look, I don't want to necessarily be part of the Taliban, but 
my district is so insecure, who am I going to back? I have to 
back someone who comes from my district. In a lot of cases 
that's the Taliban.
    I do think that in some cases they're opposed to us because 
we're foreigners, but I think that the real issue is lack of an 
alternative. They don't like the Taliban, but they would rather 
the Taliban than lethal anarchy.
    The Chairman. Senator Lugar.
    Senator Lugar. I have just one question, Mr. Chairman. Just 
picking up on your point, Dr. Kilcullen, earlier we were 
talking about how negotiations might begin, how the parties 
could be assembled. But the point you've just made is that by 
and large Afghans have great reservations about their 
government, specifically concerning the well-documented 
corruption problem, as well as with respect to its competence 
and fairness. So it's confusing to me how this group can be led 
to gather at the negotiating table given that we've already 
said that this process has to be guided by the Afghan 
Government, and a good number of the parties that are going to 
need to be compelled to negotiate currently have very little 
confidence in the conduct of that government, this one or any 
other one, I suspect, previously in Afghanistan.
    In other words, it's just very hard for me to envision the 
end of the trail when the parties themselves have such diverse 
views of each other, quite apart from whoever might be out in 
the field in the brunt of conflict, participating in operations 
leading to the killing of Taliban forces.
    In other words, who will actually step up and say to the 
Afghan Government, shape up, you've really got to change your 
ways or you won't be able to gain the confidence of your 
people? This is beyond our capacity and I think the capacity of 
the other governments and everybody else involved. What really 
brings about any degree of reform that is credible?
    Dr. Kilcullen. Well, sir, I would just say that it's the 
United States. We sit here and we criticize the Afghan 
Government. This is our Afghan Government that we set up. These 
are our leaders that we put in charge. When I say ``we'' I mean 
the international community, the Bonn process. We've called on 
them repeatedly to reform. We need to say: Look, you stand or 
fall on the basis of international community assistance. In 
fact, that's very much the conversation that happened last week 
in Kabul, in fact.
    So that I think that the international community has to put 
its foot down about some of these behaviors. But I would also 
just say--and this is repeating something that was said 
earlier. The average Afghan doesn't wake up in the morning and 
say: I live under a corrupt government. What they're worried 
about is not the international recognition of the Karzai 
government. What they're interested in is local issues, local 
abuses, access to justice, infrastructure issues, those kind of 
things. You can get a long way in shaping people's willingness 
to negotiate by affecting those local areas.
    We talked about shaping the Taliban to make them weaker for 
negotiations. You also have to shape the Afghan government to 
get them to a position where they're actually credible enough 
to be part of those negotiations, and I do think that's a 
longer timeline than next summer. It's going to take us a 
while.
    Senator Lugar. But are there really alternatives? Didn't we 
select or support various elements, now including President 
Karzai, in part because they appeared to be the best 
alternative? Where are the other possibilities? In other words, 
if Karzai said, OK, if you're not behind me, who else would you 
support? Who really would be any different?
    Dr. Kilcullen. The alternative is not another national 
figure that's out there. The alternative is another approach, a 
locally inclusive approach based on things like district 
elections and those sorts of approaches, rather than solely 
looking for the right individual leader at the elite level. I 
think the elite focus is not the right way to go here.
    Senator Lugar. Thank you.
    The Chairman. Thank you, Senator Lugar.
    Senator Kaufman, I think you had an additional question?
    Senator Kaufman. Yes, I do.
    Look. Our government, we set it up. Stand or fall, put our 
foot down. I've only been hanging around, going to Afghanistan, 
for the last year and a half. And we've put our foot down, 
we've yelled, we've screamed. We put in an incentive for July 
2011. Everybody says, well, that's not such a good idea.
    Dr. Kilcullen, you described it as a silver lining. I 
described it as the meat and potatoes of what we're doing, 
because we've got to move the Karzai government, the Kabul 
government.
    And the idea that we're going to be around in 2014--we're 
supposed to have a review of this in December of this year. 
We're supposed to have another review in July of next year, and 
already we're talking about 2014? What happens? I have not seen 
a whole lot of progress in terms of governance on the ground.
    We had good people over there. We've been working them 
hard. Our military's doing a great job in what they're doing. 
But in terms of governance on the ground, I have a real problem 
with seeing where it's going.
    Let's just talk about corruption for a minute, just for a 
minute. We talk about corruption. The report's now out that 
we've found people, we've found they were corrupt, we got the 
goods on them, and there was a report in the Post, I think it 
was June 28, the Karzai government let them go. Now, at what 
point do we say that we can't make this work? It may be our 
government. We can't make this work if in fact when we find 
corruption, when we identify it, when we nail them, the 
government lets them go.
    So just some comments on that. I don't get it.
    Dr. Kilcullen. I'm going to defer to Ambassador Crocker 
here and also Ms. Salbi. One of the things that I was most 
impressed with about the surge in Iraq was the way that 
Ambassador Crocker and General Petraeus forced a change in 
behavior on the part of the Iraqi Government. That was done 
through more than just passionate calls for change. It was 
leverage based on dossiers showing bad behavior by certain 
officials that were shown to key members of the Iraqi 
Government, and they were told: You fire this guy or we're 
going to fire him for you.
    Senator Kaufman. Can I just interrupt for a second. We've 
shown dossiers to the Kabul government and people.
    Dr. Kilcullen. But we've never held--that's right, but 
we've never held them, I think, accountable----
    Senator Kaufman. How do you hold them accountable if 
they're not going to do it? I mean, you in fact are there. This 
present government and the President doesn't seem to react. 
They know they've got us. They know it's our government. We 
present them with dossiers. We presented them in Iraq and we 
didn't, and they did something. But we presented them to this 
government and they haven't done anything.
    Dr. Kilcullen. I think I generally agree with you. We've 
had this conversation before, not in this forum, that in fact 
they----
    Senator Kaufman. My point is at some point--that's why I 
think we need to look at this hard in December and see where we 
are. We've got to look at this thing again in July and see 
where we are. Can we carry this off? The military will do their 
job. I have no doubt about that. But will the government be 
able to hold up their part of the bargain?
    Yes, Ms. Salbi.
    Ms. Salbi. The United States is going to leave. It is 
considered an occupier. We will leave both for our own 
interests as well as the frustrations with the Afghan 
Government. For me, it's how we're going to leave. Either leave 
with Dr. Kilcullen saying create viable alternatives there, all 
the suggestions, either leave and create a new coalition who 
would lead Afghanistan in the future, which is what I 
suggested, have Turkey bring other Muslim-led countries to take 
more ownership in the solutions for Afghanistan, or whatever 
other options. Do not leave and repeat the mistakes of the 
1980s, which eventually led to what we are dealing with. That 
for me is the worst case scenario, if we leave and wash our 
hands off and say we have nothing to do with them, because that 
will create a fertile land to the reemergence, if not of the 
Taliban, other extremist groups.
    It's about how do we leave, so let us leave in a way that 
at least carries on something. I don't think leaving with the 
Afghan Government as is is a viable solution for us.
    Senator Kaufman. Well, I'll tell you what. I'm not for 
spending one more dollar or one more American life until we 
have a conviction that we can get governance that's good 
enough. This is not about resurrecting Afghanistan, with all 
due respect, and I care about Afghanistan. But the standard is 
not that we leave something better. On the day we decide that 
we don't have governance there that's good enough, we should 
leave that day.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaufman.
    I need to go to a 12 o'clock meeting, so I'm going to leave 
it in the hands of Senator Corker, Senator Lugar. I just want 
to thank you all for coming today. I think there are a couple 
of options that we haven't put on the table today that I'm not 
going to, but I'd like to talk to you about privately.
    I thank you for coming today. It's been very, very helpful 
and I look forward to following up with you very shortly. 
Thanks.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. I too want to 
thank you for the hearing. I think it's been very good, and I 
agree with Senator Kaufman, one of the best we've had.
    You know, you listen and you come to--at least I come to 
the observation, I don't know who's holding the best hand here. 
If it's in our national interest that--and I think Ambassador 
Crocker and others have said that it is in our national 
interest--that Afghanistan function with a good enough 
government, then, getting to Senator Kaufman's frustrations, I 
don't know what it is to lever, because obviously President 
Karzai knows it's in our national interest and yet he doesn't 
behave in a way that breeds loyalty from folks in the Afghan 
Army and the Afghan police. They know that the government is 
corrupt. They know there are bad actors.
    So I'd like to--I don't understand exactly. I know that we 
were successful--these are all about human beings. I know you 
said don't invest too much in the elite and I agree that we 
should be working at the local level and much should be 
occurring there.
    What is it you do to lever someone who accepts bad behavior 
on the ground and yet knows that we believe it's in our 
national interest to be there and for Afghanistan to be 
successful? Again, who's holding the best hand of cards?
    Ambassador Crocker. Senator, if I could make a comment on 
that, because it also gets a bit at Senator Kaufman's point. I 
don't mean to keep using Iraq as a point of reference, but I 
think there are certain dynamics there that can inform us in 
Afghanistan.
    What we had in Iraq was a sense of partnership with Prime 
Minister al-Maliki. That sense of partnership was severely 
tested a number of times on both sides, but with the surge I 
think down deep Maliki felt we were doing everything we could 
to make things work in Iraq and to make his government 
successful.
    That set the stage for a series of very, very difficult 
conversations on individuals, individual issues, issues of 
corruption, issues of malfeasance. In some of those we 
prevailed, in some of those we didn't. In some of those Maliki 
was able to say: I understand, I got you, but here's the other 
threading on this; if I do that, here's what unravels 
underneath in ways that maybe we didn't understand.
    I say all of that because I think the sine qua non for 
moving in a positive direction in Afghanistan is a shared sense 
of partnership with President Karzai. He has to believe and we 
have to believe that, however we may differ on various issues, 
that we are working for the same goal, which is a stable enough 
Afghanistan with good enough governance to prevail on its own.
    If you have that, then I think you can have these difficult 
conversations and start making some progress where we and he 
would see that we're not suggesting the removal of this 
official just because it makes us feel good, it's because we 
see it as essential for him to succeed. But what has to 
underlie that is the belief on both sides that we are seeking 
the same goals.
    I think over the last few months we have worked harder to 
try and signal that and I sense, although I'm not close to it, 
I sense with some success. But clearly, over this coming year 
between now and December and December on forward, there have to 
be those conversations. But to be meaningful, they have to be 
with the Government of Afghanistan and its leader. That's our 
partner, for better or worse, and I hope we are able to find a 
way to work with him to start to make a strategic difference.
    Senator Corker. Dr. Kilcullen, do you want to add to that?
    Dr. Kilcullen. No, I agree entirely with that. I would just 
maybe add the comment that, can we reform the Afghan 
Government? Maybe. Can we do it by July 2011? No. That's why I 
think the timeline matters.
    Senator Corker. Well, I think what's occurred has occurred, 
but I think when we focus on counterinsurgencies the fact is 
you have to have a partner for it to work. I think that's the 
issue of the day, really, is how we in essence end up having a 
partner that works. The American people have got to decide, 
through us and others, whether they believe this to be in the 
country's national interest to ensure that Afghanistan 
succeeds.
    I'm not sure that any of us have done a good enough job 
explaining whether that is or is not true. But in a 
counterinsurgency you have to have a government that functions. 
So far, that's obviously been a huge gap, and I think there 
will be a lot of discussion as we move ahead.
    I would say that I think having General Petraeus come and 
talk about how that relationship is developing at the right 
time, as you mentioned at the end of your testimony, your 
written testimony, would be a good thing. I know that Senator 
Clinton--excuse me--Secretary Clinton has mentioned she'd be 
willing to do the same. But I think understanding how that 
relationship is evolving or not evolving would be an important 
thing for all of us to understand.
    With that, I'll stop. I thank you all for your time and 
certainly for wonderful testimony.
    Senator Lugar [presiding]. Senator Kaufman.
    Senator Kaufman. Can I just make one comment, because I 
think it's really key. I don't think anyone's expecting us to 
solve this by July 2011. But I think what we're trying to say 
is that by December of this year, which was committed to, we 
would see progress toward this. Some of the progress is 
measurable. I'm not talking about the whole list of metrics and 
everything else. But let me tell you: If in July 2011 we're 
still trying to get the first person in jail who we've built a 
dossier on, then 2014 is not an option.
    Dr. Kilcullen. I would agree with you.
    Referring to a conversation we had once before, a lot of 
the benefits you get from the timeline, you would get those 
same benefits whether it was public or not. A lot of the 
negative effects of the timeline come from it being a public 
timeline. So that there may in fact be an interest in private 
conversations depends on what develops during that timeline.
    Senator Kaufman. Yes. It depends on whether you're trying 
to concentrate the mind of the Taliban or concentrate the mind 
of the government. My opinion is that--you know the old saying, 
there's nothing like the prospect of hanging to concentrate the 
mind. But I think the idea is not to have it all settled by 
July 2011. The idea is do we have--I'm not going to get into 
the whole thing, but do we have an idea that it's going to work 
out.
    Senator Lugar. Thank you very much, Senator Kaufman.
    I'm certain that I'm speaking on behalf of our chairman and 
all of the members of the committee in thanking each of the 
members of the panel for really your thoughtful and well-
informed testimony today, and for your responses to our 
questions. I agree with all that this has been one of the most 
important conversations we've had about Afghanistan on this 
committee, and hopefully this will be important in the dialogue 
with the American public.
    So we're grateful to all three of you. We look forward to 
seeing you again, and with that the hearing is adjourned.
    [Whereupon, at 12:08 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
